<html>
<title> - DEMOCRATIC TRANSITIONS IN SOUTHEAST ASIA</title>
<body><pre>[Senate Hearing 114-821]
[From the U.S. Government Publishing Office]


                                                  S. Hrg. 114-821

                DEMOCRATIC TRANSITIONS IN SOUTHEAST ASIA

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON EAST ASIA, THE PACIFIC, AND
                   INTERNATIONAL CYBERSECURITY POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: https://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-996 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                         ------------          

          SUBCOMMITTEE ON EAST ASIA, THE PACIFIC, AND        
               INTERNATIONAL CYBERSECURITY POLICY        

                CORY GARDNER, Colorado, Chairman        

MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               BARBARA BOXER, California
JOHNNY ISAKSON, Georgia              CHRISTOPHER A. COONS, Delaware
JEFF FLAKE, Arizona                  TOM UDALL, New Mexico

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Cory Gardner, U.S. Senator From Colorado....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     2
Scott Busby, Deputy Assistant Secretary, Bureau of Democracy, 
  Human Rights and Labor, U.S. Department of State, Washington, 
  DC.............................................................     4
    Prepared Statement...........................................     6
James A. Carouso, Acting Deputy Assistant Secretary, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State, 
  Washington, DC.................................................    13
Hon. Mark Green, President, International Republican Institute, 
  Washington, DC.................................................    22
    Prepared Statement...........................................    24
Murray Hiebert, Deputy Director and Senior Fellow, Sumitro Chair
  for Southeast Asia Studies, Center for Strategic and 
  International Studies, Washington, DC..........................    27
    Prepared Statement...........................................    29
Kelley Currie, Senior Fellow, Project 2049 Institute, Arlington, 
  Virginia.......................................................    32
    Prepared Statement...........................................    34

                                 (iii)

  

 
                DEMOCRATIC TRANSITIONS IN SOUTHEAST ASIA

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2015

                           U.S. Senate,    
Subcommittee on East Asia, the Pacific, and
                International Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:57 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner 
(chairman of the subcommittee) presiding.
    Present: Senators Gardner and Cardin.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order. We are 
doing something entirely unique in the Senate, and that is 
actually starting on time and maybe even a little early. So 
this may be a historic first occasion. As a new member, at 
least, this seems to be something that is of a historic nature.
    Senator Cardin. You just violated a tradition of the United 
States Senate. Senator Byrd would not be happy. [Laughter.]
    Senator Gardner. Let me, again, welcome all of you to the 
fifth hearing of the Senate Foreign Relations Subcommittee on 
East Asia, the Pacific, and International Cybersecurity Policy. 
Thank you very much for being here, and thank you to Senator 
Cardin for his cooperation and work and support for holding 
this very important hearing.
    The purpose of the hearing is to examine the trajectory of 
democracy in Southeast Asia. This region is critical to U.S. 
strategic and economic interests but has for decades been ruled 
by authoritarian regimes, often creating tensions for U.S. 
policymakers between advancing key national security objectives 
and pursuing our fundamental values of freedom and democracy in 
the region.
    In 1967, when the Association of Southeast Asian Nations, 
or ASEAN, was formed, none of its six original members--
Thailand, Singapore, Malaysia, Indonesia, the Philippines, 
Brunei--were democracies. Democracies started to take root in 
the region only in the 1980s and 1990s, following the example 
of democratic transitions elsewhere in East Asia, most notably 
South Korea and Taiwan.
    According to the Council on Foreign Relations, by 2008, a 
region that was dominated by authoritarian regimes throughout 
the cold war now looks significantly different. In its report 
on Global Freedom in 2009, Freedom House ranked the 
Philippines, Thailand, Singapore, Malaysia, and Timor-Leste as 
partly free nations, and ranked Indonesia as free.
    While since there have been significant setbacks as well in 
the region's democratic path, most notably the return of the 
military rule in Thailand last year, there are also seemingly 
emerging success stories as well.
    On November 8, 2015, just earlier this month, there were 
elections in Myanmar or Burma, where Suu Kyi's National League 
of Democracy party has swept to an overwhelming victory. It 
gives us hope that democracy is still on the march in Southeast 
Asia.
    However, we should never overlook or oversimplify these 
challenges. Democracy is not only about the process of holding 
elections. It is about instituting the rule of law, enshrining 
checks and balances, and respecting fundamental freedoms of 
assembly and human rights.
    Burma as well as other countries in the region have a long 
way to go before that is the case.
    So while we look to the elections in Burma with hope, we 
must also ask the question of whether a genuine democratic 
system can exist when the military has just simply reserved 25 
percent of Parliament seats without competition, has instituted 
blatantly discriminatory laws, or has disenfranchised whole 
segments of the population.
    So it is my hope that as we approach the ASEAN summit this 
weekend, this hearing can provide a thorough overview of the 
state of democracy in Southeast Asia and how U.S. policy can 
best encourage our partner nations in this critical region to 
follow the democratic path.
    With that, I will turn to Senator Cardin for his opening 
remarks.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, thank you very much for your 
leadership on this subcommittee. We know that the pivot to the 
Asia-Pacific region is critically important to our global 
strategy. This hearing is particularly important as we talk 
about democratic transitions in Southeast Asia.
    During the past few decades, we have seen an incredible 
change in Southeast Asia, from poverty and civil war and 
authoritarian governments to now tens of millions of people 
having opportunity. So we have seen a trajectory that has been 
very positive over the last several decades.
    But having said that, there has been a concern of late that 
maybe that momentum is being lost. Perhaps there is even some 
backtracking on the progress that has been made for democracy 
and opportunity in Southeast Asia.
    I think all of us have to be concerned when we take a look 
at the Freedom House 2015 publication, ``Freedom in the 
World.'' The organization ranks six Southeast Asian countries--
Brunei, Cambodia, Laos, Burma, Thailand, and Vietnam--as ``not 
free''; and five countries--East Timor, Indonesia, Malaysia, 
the Philippines, and Singapore--as only ``partly free.'' 
Notably, not a single Southeast Asian country was characterized 
as ``free.''
    So clearly, we have a challenge. There is a question as to 
how we are progressing. It is clearly in the U.S. interests, 
and it is a strong component of our foreign policy objectives, 
to ensure that democracy and human rights are key factors in 
the countries that we have relations with.
    I take you back to the principles of Helsinki. I served 
many years and am now the ranking Democrat in the Senate for 
the Helsinki Commission. But the principles of the Organization 
for Security and Cooperation in Europe is based upon stability. 
How can we maintain stability among countries? Countries have 
to be able to defend their borders. They have to have the 
capacity to do that. Countries need economic opportunity for 
their citizens. An economic future is one of the key 
ingredients for stability in a country.
    But basic human rights--how a country deals with the right 
of expression, how a country deals with corruption, how a 
country deals with free and fair elections--are very much a 
part of whether there will be stability. You cannot have a 
military state and expect to have stability. It is not just 
because you have resource wealth that you will become a stable 
country, as we have seen in too many countries around the 
world.
    So the attention on good governance and on human rights, 
must remain a key focus of our foreign policy.
    Now, it is hard to generalize. It is not fair to compare 
one country to another. So I think each country is, indeed, 
unique. But clearly, there are countries that require our close 
attention.
    Burma, on November 8 held its first contested national 
election since 1990. Arguably, the country has come a long way 
from the outright military dictatorship it was under for nearly 
50 years. More than 90 political parties were registered to 
take part in the most recent elections--but just how 
transparent, inclusive, and credible were they? What can we 
expect in terms of transition in Burma over the next few 
months? Over the long term. Is there anything more the United 
States can do for a smooth democratic transition in Burma, as 
opposed to one in which it chugs along in fits and starts?
    Second, I would like to hear from our witnesses the 
prospect for democracy in Thailand. We have had a long 
relationship with this country. It is a longtime friend, a U.S. 
treaty ally for more than 60 years. This is a country that, 
since 1932, has experienced 19 coups, 12 of them successful.
    Over a year has passed since the military overthrew their 
elected government. The country continues to be ruled by junta.
    With the military-appointed National Reform Council 
rejecting their own draft constitution in early September, 
elections have again been postponed until early 2017. And we do 
not even know if they are going to make the early 2017 date.
    Third, I would like to hear about Indonesia, Southeast 
Asia's largest country, the world's third-largest democracy, 
and the world's most populous Muslim-majority country. It is 
often one that has been heralded as having successfully 
transitioned from an authoritarian regime to one led by a 
directly elected president. Is this country one that we should 
look to as a model? Or is it too besieged by stalled reforms 
and continued interference in politics by the military?
    I am hopeful that this hearing can shed some light on how 
the United States can use the tools that we have to encourage 
and hopefully accomplish a smooth transition in Southeast Asia 
to democratic institutions.
    Senator Gardner. Thank you, Senator Cardin.
    With that, we will turn to our first panel.
    Our first witness is Mr. Scott Busby, who serves as the 
Deputy Assistant Secretary of State in the Bureau of Democracy, 
Human Rights, and Labor, where he oversees the Bureau's work in 
East Asia and the Pacific, as well on multilateral and global 
issues, including U.S. engagement on human rights. Most 
recently, he served as director for human rights on the 
National Security Council in the White House from 2009 to 2011, 
where he managed a wide range of human rights and refugee 
issues.
    Welcome, Mr. Busby. Thank you very much. We look forward to 
your testimony.

STATEMENT OF SCOTT BUSBY, DEPUTY ASSISTANT SECRETARY, BUREAU OF 
 DEMOCRACY, HUMAN RIGHTS AND LABOR, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Busby. Thank you, Chairman Gardner, and thank you, 
Ranking Member Cardin, as well, for this opportunity to appear 
before you today to testify on the very important and timely 
issue of democratic transitions in Southeast Asia. Let me thank 
the subcommittee for its continued leadership in advancing U.S. 
interests and values and promoting overall engagement with the 
Asia-Pacific region. Your work serves as another high-profile 
demonstration of the expanded involvement of the United States 
in the region, and an important reminder that human rights and 
democracy are universal values, not just American ones.
    The U.S. Government's rebalance to Asia and the Pacific 
region recognizes that our future prosperity and security are 
inextricably tied to the region. It reflects the importance we 
place on our economic and strategic engagement, as well as our 
strong support for advancing democracy, good governance, 
justice, and human rights. These goals, in our view, are 
mutually reinforcing elements of a unified strategy that at its 
core is about strengthening our relationships with the people 
of the region and their governments.
    When assessing democratic transition in the region, I think 
we agree with the assessment that both of you offered, that 
there is some good news and there is some bad news. There are 
now more Southeast Asians living under democratic rule than was 
the case 30 years ago. Democracy is taking root in countries 
like the Philippines and Indonesia. And in countries like 
Burma, there have been important steps toward full democratic 
rule.
    At the same time, there is not so good news in countries 
like Thailand, Cambodia, and Malaysia. We have seen backsliding 
of late. Of course, millions of others Southeast Asians in 
countries like Laos and Vietnam continue to live under 
repressive and authoritarian governments.
    So the democratic picture in the region is mixed. 
Nevertheless, we remain committed to the notion that effective 
and accountable governance and respect for the rule of law and 
human rights provide the foundation for long-term political 
stability and sustainable development. Thus, they are a 
cornerstone of our approach to the region as a whole, just as 
they are in the rest of the world.
    Our democracy engagement in Southeast Asia is characterized 
by three key objectives: first, the strengthening of civil 
society; second, encouraging government transparency and 
accountability; and third, increasing access to information.
    First on strengthening civil society, in his remarks before 
the U.N. General Assembly in September, President Obama noted, 
``When civil society thrives, communities can solve problems 
that governments cannot necessarily solve alone.''
    Southeast Asia is home to a vibrant and active civil 
society with which we work closely through efforts like the 
Young Southeast Asian Leaders Initiative. We also employed 
grassroots, results-oriented programming across the region to 
empower local civil society organizations. Our programs have 
trained labor activists; brought human rights principles to 
security forces; strengthened election mechanisms; and 
empowered citizen journalists to connect, share, and publish 
their work. And our rapid response mechanisms have enabled us 
to provide immediate relief and assistance to both individual 
activists and civil society organizations when they are under 
threat.
    Still, the region has not been immune to the worldwide 
crackdown on civil society.
    In Thailand, for instance, the military regime has 
restricted civil liberties, including freedom of association, 
since seizing power in May 2014.
    In Cambodia recently, the government adopted legislation 
limiting the ability of nongovernmental organizations to 
operate freely.
    Despite these tightening restrictions on civil society, new 
tools have enabled governments to become more open and 
accountable in the region, which is our second goal for our 
engagement there.
    In the Philippines, for instance, grassroots participation 
in the planning and budgeting of poverty-reduction programs in 
every one of its municipal and provincial governments has 
resulted in greater citizen involvement and better tailored 
policies for communities. The Philippines undertook this effort 
as a founding member of the Open Government Partnership, a 
multilateral initiative in which the United States and 
Indonesia were also founding members. We will continue to push 
to expand participation in the OGP initiative throughout the 
region.
    Nevertheless, we recognize that initiatives like OGP only 
work if citizens are able to share information openly and 
freely. This is why increasing access to information is the 
third element in our democracy strategy for the region.
    We believe that access to information and freedom of 
expression are important indicators of a democracy's health. A 
free and open Internet as well as an independent press are 
instrumental to, for example, rooting out corruption and 
increasing government accountability.
    Governments in Southeast Asia are grappling with how to 
manage the flow of information with the explosive Internet 
growth, as well as new communication tools. We are troubled by 
what appears to be backsliding in some countries on these 
issues.
    In Malaysia, for instance, approximately 30 government 
critics have been charged under its sedition law, a law, by the 
way, which Prime Minister Najib once publicly committed to 
eliminating.
    So we face challenges and opportunities in this area as 
well.
    In conclusion, Mr. Chairman, the region encompasses a range 
of countries at different places in the transition to 
democracy, some moving in the right direction, others not. A 
common thread between them, though, is that their people are 
increasingly demanding more from their governments, better 
services, more transparency, and a greater role in the 
fundamental decisions that shape their lives. The Department of 
State will continue to support these aspirations. And backed by 
congressional support, we believe that democracy can further 
take root and expand throughout the region. Thank you very 
much.
    [The joint prepared statement of Mr. Busby and Mr. Carouso 
follows:]

       Prepared Joint Statement of Scott Busby and James Carouso

    Chairman Gardner, Ranking Member Cardin, and distinguished members 
of the subcommittee, thank you for the opportunity to appear before you 
today to testify on the very important and timely issue of democracy in 
Southeast Asia. We would also like to thank the subcommittee for its 
continued leadership in advancing U.S. interests and supporting and 
promoting engagement with Asia and the Pacific region. Your work, 
including recent visits by committee members and staff, serves as a 
high-profile demonstration of the expanded involvement of the United 
States in the region, and an important reminder that human rights and 
democracy are not only core American principles, but also universal 
values.
    Viewed from a long-term perspective, we can say that significantly 
more people in Southeast Asia are living in democracies than 30 years 
ago, although we of course want to see more and faster progress, and 
millions still live under repressive and authoritarian governments. In 
some countries we have seen recent backsliding in democratic governance 
and respect for human rights. In Southeast Asia and around the world, 
we remain committed to the notion that effective and accountable 
governance, the rule of law, and respect for human rights provide the 
foundation for long-term political stability and sustainable 
development.
                rebalance to asia and the pacific region
    The U.S. Government's ``rebalance'' to Asia and the Pacific region 
recognizes that our future prosperity and security are inextricably 
tied to the region. Over the past three decades, the region has 
experienced an unprecedented period of prosperity, lifting hundreds of 
millions out of extreme poverty. A growing middle class has expanded 
business and trade opportunities and driven reciprocal growth in 
countries around the world, including the United States.
    The rebalance reflects the importance we place on our economic, 
security, public diplomacy, and strategic engagement in Asia and the 
Pacific region, and our strong support for advancing democracy, good 
governance, justice, and human rights. These goals are mutually 
reinforcing elements of a unified strategy that, at its core, is about 
strengthening our relationships with the people of the region and their 
governments. It is about protecting and promoting fundamental human 
rights, such as the freedoms of expression, association and assembly, 
all prerequisites to a ``government by the people.'' It is about 
citizens having the ability to choose their own leaders and influence 
the decisions that affect their lives, because solutions to the 
challenges facing Asia need to come from the bottom up, not the top 
down.
    Promoting democracy and human rights, in Asia and around the world, 
is the right thing to do. It also strengthens our strategic presence 
and advances our strategic interests. It helps build more stable 
societies by encouraging governments to give people peaceful outlets 
for expressing themselves and to seek the most enduring and reliable 
source of legitimacy: the consent of the governed. It supports our 
economic goals by promoting laws and institutions that secure property 
rights, enforce contracts, and fight corruption. It empowers citizens 
to hold their governments accountable on issues like protecting the 
environment and ensuring product safety, which are important to the 
health and well-being of our own people. It aligns American leadership 
with the aspirations of everyday people in the region.
    By the same token, our strategic presence in Asia--our alliances, 
our trade agreements, our development initiatives and partnerships, our 
ability to provide security and reassurance to our friends--enables us 
to promote democracy and human rights more effectively. Our partners in 
the region are more likely to work with us on these issues if they know 
that the United States remains committed to maintaining our leadership 
in the region and that we will stand by them in moments of need. To 
advance the vision we share with so many of the region's people, we 
must be present and principled at the same time.
          advancing democracy: civil society, transparent and 
            responsive governance, and access to information
    As we continue to deepen our engagement in Asia and the Pacific 
region, the promotion of democracy, human rights, and good governance 
is front and center--in private and public diplomacy. Our engagement is 
focused in three key areas: strengthening civil society, encouraging 
transparent and accountable governance, and increasing access to 
information.
    In his remarks before the U.N. General Assembly in September, 
President Obama noted, ``When civil society thrives, communities can 
solve problems that governments cannot necessarily solve alone.'' 
History has shown that durable change is most likely to come from 
within. That means to be truly effective, we must stand up for civil 
society, give civil society actors a lifeline of support when they need 
it, and help preserve space for them to make the case for change in 
their own societies.
    Southeast Asia is home to a vibrant and active civil society that 
we work closely with through initiatives like the Young Southeast Asian 
Leaders Initiative. Countries like Indonesia, the Philippines, and 
Malaysia have some of the most vibrant and diverse civil society 
organizations in the world. However, the region has not been immune to 
a worldwide trend of government restrictions on civil society. One 
example is Thailand, where the military regime has restricted civil 
liberties since seizing power in May 2014. Next door, the Cambodian 
Government has also pushed through legislation restricting the ability 
of nongovernmental organizations to operate freely.
    Some have argued that these crackdowns are a rejection of 
democracy, but in fact, these repressive policies are the result of 
democracy's powerful appeal. Democratic movements raise citizens' 
expectations and empower them to demand basic rights. Last year, 
Indonesia hosted the largest single-day elections in the world. During 
that election, citizen-activists built a web app that crowd-sourced a 
parallel vote tally and helped increase the Indonesian electorate's 
confidence in that historic day. Similarly, the recent elections in 
Burma enjoyed the participation of the vast majority of Burma's 
citizens, marking another important step in its democratic transition.
    In some Southeast Asian countries, new tools have enabled 
governments to be more open and to make data about governance more 
accessible, which has resulted in a better informed and empowered 
citizenry. And we know that open and transparent government is the best 
route to advancing both democracy and development. For example, in the 
Philippines, the government required grassroots participation in the 
planning and budgeting of poverty-reduction programs in every one of 
its municipal and provincial governments. That requirement has resulted 
not only in greater citizen involvement in the creation, 
implementation, and evaluation of programs, but also bettered tailored 
policies for communities.
    The Philippines undertook this initiative as a founding member of 
the Open Government Partnership (OGP)--a multilateral initiative that 
includes governments and civil society from around the world working 
together on good governance reforms. The United States was also a 
founding member of this effort as was Indonesia, which chaired the OGP 
in 2014. This partnership allows the U.S. Government to promote 
democracy and good governance through practical cooperation with 
governments such as the Philippines and Indonesia to improve governance 
by making it more open and more transparent.
    We will continue to push to expand participation in the OGP in 
Southeast Asia. OGP members are required to construct national action 
plans in consultation with civil society and to agree upon reforms in 
the areas of transparency, anticorruption, good governance, and citizen 
participation. This structure ensures that governments make transparent 
aspects of their decisionmaking and activity, and it preserves an open 
society in which citizens are free to scrutinize and criticize 
government and identify opportunities for improvement. This can be an 
uncomfortable process for governments, but it is a critical piece of 
what makes it possible for citizens to hold their leaders accountable.
    As we push for this government-to-government cooperation, we also 
realize that initiatives like OGP only work if they are supported by an 
open and active civil society that is able to express itself openly and 
share information freely. This is why access to information is the 
third element in our democracy promotion strategy. In Southeast Asia, 
we have seen explosive growth in Internet access and usage, sometimes 
catching governments in the region by surprise, even, as they grapple 
with how to manage this flow of information. We believe access to 
information and freedom of expression are important indicators of a 
democracy's health. A free and open Internet as well as an independent 
press are instrumental in rooting out corruption and increasing 
government accountability.
    At the same time, we also are troubled by what appears to be 
backsliding in recent months with respect to restrictions on both 
traditional and online media around the world, including in the region. 
In some countries, defamation and national security laws have been used 
to harass, intimidate, and silence journalists and bloggers. In 
Malaysia, officials have tightened restrictions on freedom of 
expression, and government critics are now victims of charges under 
Malaysia's Sedition Laws, which Prime Minister Najib publicly committed 
to eliminating only 3 years ago.
    And in countries like Vietnam--which has an impressive level of 
Internet penetration and has made modest improvement in human rights 
over the last few years--many journalists and online activists continue 
to suffer harassment or remain in prison for peacefully expressing 
their views.
    Civil society, government transparency, and access to information 
are a three-legged stool upon which strong democracies are built. In 
addition to our diplomatic efforts to bolster these foundations, we 
also provide grassroots, results-oriented programming. Across the 
region, we support dozens of innovative programs that increase the 
effectiveness of local civil society organizations to improve their 
communities on their terms. Our programs have trained labor activists, 
brought human rights principles to security forces, strengthened 
election mechanisms, and enabled citizen journalists to connect, share, 
and publish their work. Our rapid response mechanisms have enabled us 
to provide immediate relief and help activists and civil society 
leaders and their organizations when their governments respond 
negatively to their insisting on having a voice in the decisions that 
most affect their lives.
                         overview of the region
    The experience of democracy in Southeast Asia ranges from vibrant 
democracies in the Philippines, Indonesia, and Timor-Leste, to one-
party states like Vietnam and Laos, where citizens do not have the 
right to determine their form of government. The countries we are 
focusing on today represent some of the diversity we see in the region, 
and each requires a separate and unique response.
Burma
    November 8 elections in Burma were competitive, with more than 90 
political parties campaigning. Millions of people voted for the first 
time, seizing this opportunity to move one step closer to a democracy 
that respects the rights of all. The people of Burma have struggled for 
decades and made tremendous sacrifices for this moment to happen.
    International and domestic observers closely monitored the 
electoral process, and their analyses confirmed the conduct of the 
elections was largely peaceful, transparent, and credible. We continue 
to encourage Burma's Union Election Commission to investigate any 
irregularities and to take every step necessary to ensure they are 
resolved promptly, transparently, and appropriately.
    We congratulate the National League for Democracy on its victory in 
an overwhelming number of elected union-level Parliament and state and 
regional Parliament seats; the results are a testament to Aung San Suu 
Kyi's decades-long commitment to democracy in Burma and the Government 
of Burma's commitment to furthering its democratic transition.
    While the elections were an important step forward, they were 
imperfect due to structural and systemic impediments: the reservation 
of 25 percent of the seats in Parliament for the military; the 
disenfranchisement of people who had been able to vote in previous 
elections, including most of the Rohingya; and the disqualification of 
candidates based on the arbitrary application of citizenship and 
residency requirements.
    The United States believes a peaceful post-elections period is 
critical to maintaining stability and the confidence of the people of 
Burma in the credibility of the electoral process. It will be important 
for all political leaders to work together as the new government is 
formed and to engage in meaningful dialogue. The statements from 
Burma's President Thein Sein and Commander in Chief Min Aung Hlaing 
reiterating their commitment to honor the results of the election are 
encouraging; we also welcomed Aung San Suu Kyi's call for calm and 
acceptance of the elections results.
    Burma's next government will face huge challenges, including 
completing the national reconciliation process with various ethnic 
groups, reforming the constitution, strengthening respect for and 
protection of human rights and fundamental freedoms, and addressing the 
situation in Rakhine State.
    We continue to closely monitor the situation in Rakhine State and 
the vulnerable Rohingya population. We are deeply concerned by reports 
of ongoing human rights abuses, religious freedom violations, and 
exploitative conditions. We have raised our concerns at the most senior 
levels with Government of Burma officials, and continue to emphasize 
Burma's previous commitments to improve the lives and livelihoods of 
all those affected by Rakhine State's humanitarian crisis.
    In October, the Government of Burma concluded a multiparty cease-
fire agreement with eight ethnic armed groups. We hope the signing of 
this agreement serves as the important first step in the process of 
building a sustainable and just peace in Burma. Several ethnic armed 
groups did not sign the agreement, however, and the United States 
respects their decisions--and welcomes their commitment to continue 
discussions within their own communities about the necessary conditions 
for signing at a future date. Follow-through on cease-fire agreement 
provisions, restraint on military operations, and unfettered access for 
humanitarian assistance are now key.
    The United States remains committed to supporting democratic reform 
in Burma, and the continued engagement of senior-level U.S. officials 
has reflected this belief. In May, Deputy Secretary Blinken visited 
Burma and other countries in Southeast Asia to raise issues related to 
democratization, human rights, and irregular migration. In October, 
Deputy National Security Advisor Rhodes traveled to the region to meet 
with senior Burmese Government officials, opposition party leaders, and 
civil society representatives to emphasize the importance of the 
upcoming elections and continued democratic reform. His trip followed 
East Asian and Pacific Affairs Assistant Secretary Russel's visit to 
Burma in September. Assistant Secretary Russel's October 21 joint 
testimony with USAID Assistant Administrator Stivers on the United 
States Burma policy to the House Foreign Affairs Committee also served 
to underscore high-level U.S. Government attention on Burma's progress 
toward democratic and economic reform.
Cambodia
    The July 2014 political agreement followed closely contested 
elections in 2013 and a long standoff between the government and 
opposition. This agreement between the ruling Cambodian People's Party 
(CPP) and the opposition Cambodia National Rescue Party (CNRP), and the 
subsequent ``Culture of Dialogue'' between the parties' leaders, 
brought hope that Cambodia's democracy was on a positive trajectory. In 
order to secure more transparent elections, the two parties reformed 
the National Election Law and overhauled the National Election 
Committee (NEC). Recent events, however, including beatings, arrests, 
imprisonment of opposition supporters, and the removal of opposition 
MPs, have severely limited political space and are a cause for grave 
concern. Free and fair elections cannot happen in an environment where 
peaceful expression and activity by government opponents is subject to 
arbitrary limitations.
    The ``Culture of Dialogue'' was meant to replace the rancor that 
had characterized past political discourse. It has apparently failed, 
as party leaders increasingly trade insults and threats. The use of 
violence as a political tool also has returned. On October 26, two 
opposition members of Parliament were severely beaten following a 
government-orchestrated demonstration that called for the ouster of 
CNRP deputy Kem Sokha from his position as National Assembly vice 
president. The government officially condemned the violence, but then 
granted the request of the ``demonstrators,'' removing Sokha in a 
controversial vote. The Cambodian Government's subsequent issuance of 
an arrest warrant for CNRP President Sam Rainsy, followed by his ouster 
from the National Assembly and consequent loss of parliamentary 
immunity, only made matters worse. These actions recall a more 
authoritarian period in Cambodia's recent past and raise serious doubts 
about the government's commitment to the reforms undertaken in 2014.
    In the last year, the Cambodian Government also enacted a series of 
laws that substantially limit fundamental freedoms and undermine 
Cambodia's democracy. The Law on the Election of Members of the 
National Assembly (LEMNA) penalizes NGOs that criticize political 
parties during the 21-day period set for campaigning. Meanwhile, other 
provisions allow security forces to take part in political campaigns. 
Yet other provisions make it easier for the government to strip 
parliamentarians of their seats--a power which the government has 
proven very willing to use. Similarly, the vaguely worded Law on 
Associations and Non-Governmental Organizations (LANGO) imposes onerous 
registration requirements on any ``group'' undertaking any 
``activity,'' potentially subjecting all social activity to regulation. 
It is unclear how strictly the Cambodian government will enforce the 
law, though early indications are not encouraging.
    The opaque legislative process that passed LEMNA and LANGO with 
limited public involvement continues, allowing the government to rush 
through other controversial laws with little stakeholder consultation. 
The National Assembly is set to vote on a draft Trade Union Law that 
includes very little input from independent labor unions and may not be 
compliant with International Labor Organization standards on freedom of 
association. The U.S. Government will continue to urge transparency and 
accountability in the legislative process, starting with making draft 
laws publicly available.
    Looking ahead, we are very concerned that the 2017 local and the 
2018 national elections will not be free or fair and could include 
violence. We have strongly voiced our concerns about intimidation of 
the opposition, noting that the Cambodian people continue to express a 
preference for greater freedom and accountability from their 
government. We have repeatedly stressed the need for the government to 
allow sufficient political space for the opposition. U.S. programs will 
play an increasingly vital role in promoting democracy in a country 
where democratic values are under threat. We will support efforts to 
improve the electoral process, including ensuring reliable voter 
registration though assistance to Cambodia's NEC. We will maintain 
support for Cambodia's vibrant civil society, enabling it to continue 
playing its crucial role in Cambodia's democracy.
Thailand
    The United States has a long history of friendship and shared 
interests with Thailand over the course of our 182-year-old 
relationship. We want Thailand to emerge from the current period as a 
strengthened democracy, not only for its own future but also for our 
bilateral relationship, which can only fully resume with the 
restoration of elected government.
    Since the military-led coup in May 2014, the government's timetable 
for returning Thailand to democratic governance has slipped several 
times. The military-appointed National Reform Council on September 6 
rejected a controversial draft constitution written by a separate, 
military-appointed committee. A new committee now is working on another 
draft charter for approval by public referendum; if it passes, 
elections would take place in mid-2017.
    We continue to advocate for the full restoration of civil liberties 
in Thailand, which we believe is a prerequisite for an open and robust 
debate about the country's political future, something particularly 
critical now. A year-and-a-half after the coup, the military-backed 
government continues restricting civil liberties, including limiting 
fundamental freedoms of expression and peaceful assembly, and trying 
civilians in military courts. Media restrictions remain, and 
journalists, politicians, and activists have been summoned for 
criticizing the regime. We encourage the ruling National Council for 
Peace and Order to engage directly with political parties and civil 
society, allowing all Thais to express their views without retaliation, 
and to take those views into account.
    We are not advocating for a specific constitutional or political 
blueprint. Those are questions for the Thai people to decide. Rather, 
we seek an inclusive political process so that the Thai people have a 
meaningful say in the outcomes and accept the results. We are concerned 
that, without such a timely, transparent, and inclusive reform process, 
it will be difficult for the Thai Government to enjoy the public 
support necessary to build lasting institutions.
    Due to the Thai military's intervention, we immediately suspended 
certain assistance when the coup occurred, as required by law. We will 
not resume this type of assistance until a democratically elected 
government takes office. In addition, we continue to review, case by 
case, whether to proceed with certain high-level engagements, military 
exercises, and training programs with the military and police.
    We remain committed to maintaining our enduring friendship with the 
Thai people and nation, including our long-standing and important 
security alliance. We continue to cooperate closely on issues such as 
public health, law enforcement, counternarcotics, trafficking in 
persons, counterterrorism, refugees and displaced persons, climate 
change, and maritime security to benefit both our countries, the 
region, and beyond.
    Our objective is that Thailand's transition to civilian rule be 
inclusive, transparent, and timely and result in a return to democracy 
through free and fair elections that reflect the will of the Thai 
people. As Thailand rebuilds democratic institutions of governance and 
reconciles competing political factions, we are confident that the 
country will continue to be a crucial partner in Asia in the decades to 
come.
Indonesia
    Indonesia began its transition to democracy 17 years ago, after 
more than 40 years of authoritarian and military rule. Now, as the 
world's third-largest democracy, it is a success story and a model for 
other emerging democracies. This accomplishment is all the more 
impressive for taking place in the world's fourth-largest country. The 
scale of its 2014 Presidential election was remarkable: almost 125 
million voters at 550,000 polling stations across the 3,000-mile width 
of the Indonesian archipelago. This was the largest single-day election 
in the world and voter turnout was almost 70 percent.
    Despite these successes, Indonesia still has work to do 
consolidating its democratic gains. For example, corruption is 
widespread and protection of minority rights is sometimes inconsistent 
in practice. Political decentralization has been a major step in 
democratization, but also has highlighted the need to improve 
governance at all levels. However, these concerns should not obscure 
the remarkable progress Indonesians have experienced over the last 17 
years. They enjoy more freedom and prosperity than at any other time in 
their history; civil society is blossoming, the press is free, and 
women have an influential voice. Indonesia is both the world's largest 
Muslim-majority country and its third-largest democracy, and so serves 
as an example to many other countries.
Malaysia
    Malaysia has a parliamentary system of government and holds 
multiparty elections. Nevertheless, the United Malays National 
Organization (UMNO), together with a coalition of political parties 
known as the National Front (BN), has held power since independence in 
1957. The ruling coalition lost the popular vote to the opposition in 
May 2013 general elections, but was reelected in Malaysia's first past-
the-post system. Opposition gains came despite electoral irregularities 
and systemic disadvantages for opposition groups due to lack of media 
access and gerrymandered districts favoring those in power.
    The United States consistently advocates for free and fair 
elections in Malaysia. While we were pleased to see Malaysians across 
the political spectrum engaged in the electoral process in large 
numbers with unprecedented enthusiasm in 2013, we publicly noted our 
concerns about opposition access to the media. Just 3 weeks after the 
elections, the government arrested several opposition leaders under the 
Sedition Act, a law Prime Minister Najib had publicly promised to 
repeal. In March 2014, opposition leader Anwar Ibrahim was convicted of 
politically motivated sodomy charges levied against him in 2008. A 
federal court reaffirmed his conviction in February of this year, 
raising serious questions regarding rule of law and judicial 
independence. Anwar remains imprisoned today, effectively removing him 
from politics.
    Since June 2015, when Prime Minister Najib became embroiled in 
allegations of corruption regarding his ties to state-owned development 
company 1Malaysia Development Berhad (1MDB), the human rights situation 
has trended downward quickly. We are increasingly troubled--and have 
been increasingly vocal--about the continued use of the Sedition Act 
and other laws to harass, detain, and imprison government critics, 
including Anwar. Despite changes to the law, the government still uses 
the Sedition Act to silence its critics. The government has charged 
dozens with sedition, including opposition members of Parliament, state 
assemblymen, community and NGO activists, Internet bloggers, academics, 
and artists. It has used national security laws to detain members of 
the ruling party who had called for investigations into the Prime 
Minister's ties to 1MDB and $700 million in deposits to his personal 
bank account.
    We frequently engage Malaysian Government officials at the highest 
levels about the most significant human rights problems, especially 
government restrictions on freedom of expression and the continued 
imprisonment of Anwar. Secretary Kerry raised these concerns directly 
with Prime Minister Najib in August and again with Deputy Prime 
Minister Zahid in October. Our Ambassador and Embassy personnel are in 
regular contact with Anwar's family and senior Malaysian officials to 
ensure Anwar receives proper treatment--and to reinforce our ongoing 
opposition to his politically motivated imprisonment.
    Despite significant concerns about the trajectory of human rights--
especially in the past several months--our bilateral relationship with 
the Malaysian people is important in its own right. Malaysia is our 
second-largest trading partner in ASEAN, and Malaysia has been a global 
leader in efforts to stem the flow of terrorist fighters and counter 
violent extremism. We have engaged extensively with the Government of 
Malaysia on human trafficking, including forced labor, which continues 
to be a serious problem. Our cooperation on issues of mutual interest, 
such as trade and security, provide a foundation for us to raise our 
concerns frankly and frequently with our Malaysian counterparts. In 
addition, we will continue to meet regularly with civil society 
organizations representing all viewpoints, and provide support where 
possible, in order to encourage freedom of expression in Malaysia.
Philippines
    Since its independence from the United States in 1946, and 
particularly since the ouster of Ferdinand Marcos in 1986, the 
Philippines has advanced into a durable and vibrant Southeast Asian 
democracy. While corruption and poverty continue to plague the country, 
President Benigno Aquino III has pursued a successful reform-minded 
agenda that has delivered tangible results for the Filipino people. 
Extrajudicial killings, while still a problem, have become less common 
under the Aquino administration.
    As we noted above, the Philippines is a founding member of the Open 
Government Partnership and a leader in the development of transparency 
and good governance tools. Our wide range of official assistance 
through USAID in support of the Open Government Partnership with the 
Philippines further strengthens the country's democratic institutions 
by fostering broad-based economic growth, including through 
strengthening the protection of labor rights; improving the health and 
education of Filipinos; promoting peace and security; advancing good 
governance, and human rights; and strengthening regional and global 
partnerships.
                       tpp and democratic values
    Above, we have argued that promoting democracy and human rights and 
deepening our strategic presence in Asia are mutually reinforcing 
goals. This is also the case with respect to our pursuit of the Trans-
Pacific Partnership (TPP) trade agreement. Our ability to advance 
democratic values in Asia depends on reassuring friends and allies that 
we are committed to the region's security and prosperity. It depends on 
the United States maintaining a leading role in shaping the development 
of the region's institutions and norms. The TPP will enable us to 
continue playing that role. If we do not, others will and they will not 
use their leadership to promote universal values of democracy and human 
rights. In addition, the prospect of participation in a completed TPP 
encourages countries in the region to make progress in human rights and 
labor rights.
                               conclusion
    In conclusion, Mr. Chairman, we continue to implement our strategic 
rebalance, within which democracy, human rights, and good governance 
play a central role. The region encompasses a range of countries in 
democratic transition. A common thread between them is that their 
people are increasingly demanding more from their governments--better 
services, more transparency, greater tolerance for, and protection of, 
religious and ethnic diversity, and expanded opportunities to 
participate in and benefit from economic growth. The Department of 
State will continue to support these countries and their people as they 
seek to strengthen and sustain democratic governance and protect and 
promote universal human rights. With continued U.S. engagement backed 
by congressional support, we are confident that democracy will continue 
to take root and expand in Southeast Asia.
    Thank you for the opportunity to testify today. We are pleased to 
answer any questions you may have.

    Senator Gardner. Thank you, Mr. Busby.
    Our next witness is Mr. James Carouso, who serves as Acting 
Deputy Secretary of State at the Bureau of East Asian and 
Pacific Affairs. Most recently, Mr. Carouso served as the 
counselor for economic affairs at the U.S. Embassy in Jakarta 
and as Director of the State Department office responsible for 
relations with the Philippines, Indonesia, Malaysia, Brunei, 
Singapore, and East Timor.
    Mr. Carouso, thank you. We look forward to your testimony.

    STATEMENT OF JAMES A. CAROUSO, ACTING DEPUTY ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Carouso. Thank you very much, Chairman Gardner, Ranking 
Member Cardin. It is a real pleasure to be here to have the 
privilege to testify before you today.
    Promoting democracy and human rights is an integral part of 
our daily diplomacy in Southeast Asia, particularly, of course, 
in countries that are either not democracies or where democracy 
is fragile.
    Thirty years ago, as you mentioned, democracies were few 
and far between in Southeast Asia. But now, a majority of 
Southeast Asians live in democracies in places like the 
Philippines, Indonesia, and Timor-Leste. Others have made the 
progress toward the democratic path.
    In all these places, the people of those nations, of 
course, deserve most of the credit. They are the ones who 
ousted the authoritarian regimes. But the United States 
strongly supported all of these democratic transitions. At all 
of our embassies, it is one of the things we do and take pride 
in. I will talk briefly about what we are doing in some very 
different places that you asked about--Burma, Thailand, 
Malaysia, and the Philippines.
    In Burma, as you mentioned, millions of people voted for 
the first time in the November 8 elections, seizing the 
opportunity to move one step closer to a democracy that 
respects the will and rights of all. International and domestic 
observers confirm the conduct of the elections were largely 
peaceful, transparent, and credible. While the elections were 
an important step forward, they were imperfect due to 
structural and systemic impediments.
    Looking ahead, we believe a peaceful, post-election period 
is critical to maintaining stability and the confidence of the 
people. It will be important for all political leaders to work 
together as a new government is formed and to engage in 
meaningful dialogue as they tackle the huge challenges that 
face the country.
    We remain committed to supporting democratic reform in 
Burma and our continued senior-level engagement has reflected 
this.
    In Thailand, a longtime friend and treaty ally, we have 
stood for democracy there throughout the past decade of 
political turmoil. Our message to the government since the coup 
just over 1.5 years ago has been clear. We are eager to see our 
bilateral relationship restored to its fullest potential, but 
this can only happen when democratic civilian government is 
restored. Until then, we will hold back certain assistance that 
has been suspended since the coup.
    However, we will continue to cooperate with the Thai on 
regional and global issues that serve U.S. interests, such as 
health, law enforcement, trafficking, climate change, and 
regional security. In our interactions with the Thai, we have 
repeatedly stressed that it is vital for Thailand to have an 
inclusive political process and to fully restore civil 
liberties. This is essential to the open debate the country 
needs to have about its political future.
    In my third example, Malaysia, we were pleased to see 
Malaysians across the political spectrum engaged in the 2013 
electoral process in large numbers with unprecedented 
enthusiasm, but we publicly noted then about our concerns about 
opposition access to the media. Soon after the elections, the 
government arrested several opposition leaders under the 
Sedition Act, a law the prime minister publicly promised to 
repeal.
    Since June 2013 when the Prime Minister became embroiled in 
corruption allegations, the human rights situation has rapidly 
trended downward. We are increasingly troubled and have been 
increasingly vocal about the continued use of national security 
laws to harass and occasionally imprison government critics, 
including Anwar Ibrahim, the leader of the opposition.
    Finally, in the Philippines, corruption and poverty 
continue to be major concerns. President Aquino has pursued a 
reform agenda that has delivered tangible results for the 
people. Our wide range of official assistance to the 
Philippines further strengthens the country's democratic 
institutions.
    Mr. Chairman, we admire all that so many people in Asia 
have done to promote democracy and good governance, while 
recognizing there is so much that remains to be done. In our 
everyday diplomacy, we will continue to do all we can as a 
friend and reliable partner to support efforts to build and 
strengthen democracy. We appreciate the work of this committee 
in supporting these efforts.
    Finally, let me emphasize that trade and investments, 
especially TPP, are important both to support the U.S. economy 
and to our efforts to promote democracy in the region. Thank 
you very much, and I look forward to your questions.
    Senator Gardner. Thank you, Mr. Carouso. Thank you again, 
Mr. Busby, as well. We will proceed to questions now.
    Mr. Busby, as the lead of the Bureau for Democracy and 
Human Rights at State Department, the elections in Burma, how 
do you think that affects the path to democracy? What happens 
over the next several months? What do you anticipate over the 
next year? What do you anticipate the U.S. reaction to these 
elections being?
    Mr. Busby. We thought the elections were a significant, 
meaningful step forward. That does not mean we thought they 
were fully free and fair. As you yourself noted, 25 percent of 
the seats in the Parliament are still reserved for the 
military. Many citizens--not citizens. Many residents in Burma 
were prevented from voting, most of them Rohingya, which is 
very problematic for us and for the international community. 
And many would-be candidates for Parliament were disqualified 
under opaque and seemingly arbitrary procedures.
    So there were significant problems with this election. That 
said, the Burmese people turned out in great numbers with great 
passion and returned a resounding victory for the National 
League for Democracy.
    We think this is a significant step forward. Obviously, 
there is a lot more to be done in terms of the negotiations 
between the NLD and the military and the other political 
parties in Burma. But we think it is a significant step 
forward.
    Senator Gardner. What do you think needs to happen in Burma 
over the next month, as these transitions take place, or maybe 
perhaps what we do not want to see out of Burma in the next 
month as they proceed to the selection of the President?
    Mr. Busby. I think we need to first ensure that the 
military and the powers that be in Burma do allow the NLD to 
take power in the Parliament. We need to ensure that no 
irreversible decisions are made by now the lame-duck Parliament 
that ties the hands of the incoming Parliament. And I think we 
need to see progress on addressing some of the key human rights 
challenges in the country, including the release of political 
prisoners, addressing the situation of the Rohingya, and trying 
to broaden the ceasefire that has been negotiated with some of 
the ethnic armed groups, but not all.
    Senator Gardner. In terms of human rights issues, the 
Rohingya, has the U.S. policy effectively--we have about 
140,000 estimates in these camps, refugees--has U.S. policy 
been effective in addressing this issue?
    Mr. Busby. We continue to be concerned about the number of 
Rohingya who remain in camps. That said, a process for 
resettling some of those people has begun quietly, which we 
think is a positive development. But the fact that so many 
remain in camps continues to be of great concern to us.
    We raise the Rohingya at every opportunity and at the 
highest level, from President Obama on down. Deputy National 
Security Adviser Ben Rhodes was there a month or so ago. He 
raised the issue. Assistant Secretary Russell was there before 
him. He raised the issue. And my boss, Assistant Secretary 
Malinowski, has raised the issue on several occasions during 
his trips there, including during the human rights dialogue.
    We also support efforts by the multilateral community to 
highlight our concern about the issue and address the issue.
    So we are doing what we can, but it is a tough, tough issue 
within Burma. But we continue to press them.
    Senator Gardner. At the ASEAN summit coming up, will this 
be addressed? If so, what do you anticipate the outcome?
    Mr. Busby. I cannot speak for the President in advance of 
meetings that he will have there, but our concern about this 
issue has been one that he has repeatedly raised. He is 
personally seized with it, and I would be very surprised if he 
does not take the opportunity to raise it again with Burmese 
and other counterparts.
    Senator Gardner. Given the outcome of the election, at the 
monsoon season's ending last year, we saw a number of refugees 
fleeing, the Rohingya taking the refugee approach and fleeing 
in boats. Do we anticipate that perhaps again at the end of the 
monsoon season? If so, what leverage can the United States 
exercise to try to address that, given the outcome of the 
elections?
    Mr. Busby. After the end of the last sailing season, the 
U.S. Government has undertaken a concerted effort with partners 
in the region, other governments as well as civil society, to 
do what we can to address this problem. We have sought to 
identify and target smugglers and traffickers engaged in this 
trade. We have pressed the Burmese Government to address the 
root causes of the Rohingya problem. And we have pressed other 
governments in the region to open their doors to those migrants 
who may leave Burma.
    It is hard to predict with any certainty what will happen 
this sailing season. But it is an issue we are very seized of 
and very much involved in trying to address.
    Senator Gardner. Mr. Carouso.
    Mr. Carouso. If I could, we just got a report today that at 
this time last year about 13,000 Rohingya and other refugees, 
mainly Bangladeshi, had sailed to the south. This year, 
International Organization for Migration estimates only about 
1,000. This is in part because of the attention that was 
focused on it last year, but most especially the pressure we 
have put on the Thai to close these crossings, the pressure we 
put on the Thai, Burmese, and the Bangladeshis to crackdown on 
the smugglers. So clearly it is having some effect.
    I would also note that in Thailand, there is going to be a 
second conference on irregular migration. I believe it is in 
the first week of December. So it is also critical that the 
ASEAN nations have recognized the problem and are trying to 
work together to address it.
    Senator Gardner. On the second panel, in the testimony from 
Mr. Hiebert, he talks about the impact of U.S. pressure versus 
U.S. corporation, how that can change the direction or how that 
can influence nations in Southeast Asia, in the sense that was 
used in the statement that will be coming up, it says, 
``Generally, the United States has the most impact as a 
champion of democracy in the region when it leads by example 
rather than by carrying a stick.''
    I was just wondering if you would want to comment on that 
and how we use that, perhaps, if that is, indeed, the case, if 
you agree with it or not, but what that means for Thailand and 
other nations that seem to be heading in the wrong direction?
    Mr. Busby. I mean, I would say, globally, serving as an 
example is the best way to spark change on human rights or on 
other issues around the world.
    I am hesitant to generalize about what policies have been 
most effective in what countries. I mean, I think in the case 
of Burma, for instance, the fact that there were sanctions 
there, a significant sanctions regime, did play a significant 
role in helping to spark change there.
    But I would be hesitant to say, as a general matter, that 
carrots or sticks have been more effective than one or the 
other.
    Senator Gardner. Thank you, Mr. Busby.
    Mr. Carouso, do you care to comment on that?
    Mr. Carouso. Each country situation really is different. In 
Thailand, for instance, very clearly we have taken action that 
focuses on the military since the military is the source of the 
problem. But we want to maintain the incredibly close ties we 
have with the people of Thailand, the business community of 
Thailand, so we are trying to organize ourselves to have the 
most influence without affecting our long-term relationships.
    Senator Gardner. Thank you, Mr. Carouso.
    Senator Cardin.
    Senator Cardin. Let me again thank both of you for not only 
being here today, but for your work in this field.
    It would be wonderful if just the U.S. example would be 
enough to change behavior among those who have power. In Burma, 
of course, there was such obvious oppression in a military 
state that it was pretty easy for Congress to identify progress 
that had to be made in order to get to any type of a normal 
relationship with the country. The elections were pretty clear 
mandate, and Burma is making progress. We hope we will see the 
day where we will not need any of those types of sanctions.
    Corruption is a little bit more difficult. You have 
countries that have basically been built on corruption under 
totalitarian, authoritarian states. Corruption is so widespread 
that it is very difficult to figure out how you can identify a 
solution, when people think it is a way of life to pay off 
someone in order to go to school, to pay off someone in order 
to go a job.
    The United Nations has now established in their sustainable 
development goals a goal of good governance, at the leadership 
of the United States, in order to promote that particular 
objective.
    What more can we do to enforce anticorruption initiatives 
among the Southeast Asian countries? There is not one that does 
not have a significant problem with corruption. We seem to 
always put that last on our agenda. What more can we do to 
fight corruption in that region?
    Mr. Carouso. You know, Senator, my father is an immigrant 
from Greece. The reason he left Greece was because corruption 
was so bad. So 2,000 years after founding democracy, inventing 
it, he could not get past the corruption there. So it is a 
problem throughout history, and it is, certainly, a problem in 
these emerging democracies.
    In Indonesia, I spoke to a university. There must have been 
500 people in the audience, students. I asked them what the 
biggest problem in the country was. They said corruption. They 
asked me what they could do about it. I said, ``Do not pay. 
Take a picture of someone who asks for a bribe and put it on 
the Internet. Do whatever you need to do.'' I am afraid the 
answer was that they laughed, because that is the way things 
are done.
    So the question is how you change a culture of corruption. 
One thing we have been trying to do is to talk about our FCPA 
and how it works and why it is important and why doing business 
with American companies will protect its bureaucrats who sign 
contracts with us, because we say we will protect you by making 
sure our companies abide by your laws against corruption.
    It is a long-term process of changing expectations. While 
the United States as an example may not be sufficient, in this 
case I think it is probably the best tool we have while we 
encourage these countries to reform their judiciary to try 
corrupt practices, encourage participation in open governance 
programs, and other things. But it is going to be a long haul, 
I am afraid.
    Senator Cardin. I would point out that one thing you could 
do at State is work within the bureaucracies of the Department 
of State to put a higher priority on the damage of corruption. 
We have been urging working with Transparency International to 
develop standards where we can report on the status of 
anticorruption in the countries of the world. We do that with 
trafficking in persons. We think we need to have an index where 
when an ambassador comes and meets with me, I always have the 
TIP report in front of me so I can go over what they are doing 
on trafficking. We should have a similar effort on corruption.
    I agree with you. We are never going to totally eliminate 
trafficking. We are never going to totally eliminate 
corruption. But we can to a much better job on both.
    There are universal standards. We know that an independent 
judiciary, an independent prosecutor, having laws against 
bribery, financing these operations so that they have adequate 
resources--we know that all of these are indications that a 
country is serious about fighting corruption.
    We also know that corruption is a global problem. What 
happened in Ukraine was very much aimed at people who were very 
angry and as frustrated as your father was in Greece as to what 
they were seeing from their government. They wanted an honest 
opportunity in Ukraine. It was not so much Russia versus 
Europe. It was that their country was not giving them the 
services that they wanted. They decided they had had enough.
    But back to my original point about security--you are not 
going to have security unless you deal with these issues. But I 
really do not think the State Department has put a priority on 
this. Am I wrong?
    Mr. Busby. I mean, there is a lot of work going on at the 
Department on corruption, Senator. My boss, as you may know, is 
quite seized of the issue as well and recognizes that for the 
purpose of democratization, as Jim has also mentioned, 
corruption is often at the top of the list of issues that 
citizens want to be addressed.
    One thing we are doing at the State Department is sanctions 
vis-a-vis corruption. There is an Executive order that 
authorizes us to sanction individuals who we believe are 
engaged in corruption. There is an active process of trying to 
identify individuals who can be sanctioned under that executive 
order.
    And to go back to the issue of transparency I mentioned 
earlier, one of the things that can be done through the 
Internet and through other information-sharing devices is to 
shine a light on corruption where it occurs. There is a 
wonderful app, I think you call it, called I Paid a Bribe. I do 
not know how popular it is in Southeast Asia, but I know that 
in India, Kenya, and places like that, it allows citizens who, 
when they experience corruption, to immediately publicize it. I 
know that that has had an impact in some countries around the 
world. It is something that I think we should continue to 
support and encourage.
    Senator Cardin. There are good people at the State 
Department trying to do the right thing. I would just urge that 
we have to figure out a way to break through the bureaucracy of 
the State Department to make this a much higher priority than 
it is today.
    Mr. Chairman, I would like to ask one other question, if I 
might, as it relates to do Thailand.
    How much patience do we have here? This is a country where 
we have a long relationship. We have a strategic partnership. 
Every country in the world, we have some degree of strategic 
partnership--with the exception of perhaps North Korea and 
Iran. But just about every country, we have reason to want to 
have a good relationship with them.
    Thailand is, certainly, a country that we want to have a 
good relationship with. But how can we condone the lack of 
progress in this country toward democratic rule? It has been 
the policy of United States for a long time that we do not 
acknowledge coups. But it has been a long time now.
    The progress seems to be moving at a snail's pace. So why 
are we not more aggressive with our friends in Thailand?
    Mr. Carouso. It has been incredibly frustrating working 
with our Thai friends. As you noted before, they said they had 
a roadmap and a new constitution, and they scrapped it. On the 
other hand, from what they wrote, it was worth scrapping.
    They are also negotiating these new rules without reference 
to civil society. We keep telling the government, unless you 
bring in all parts of the country and have this understood by 
all, it is not going to be what you want.
    As I mentioned before, we are trying to target the 
pressure, and it is having an effect in terms of seeing the 
Thai leadership now almost begging for our understanding. Of 
course, unless they do something about it, so what?
    We continue to pressure them. We continue to encourage 
them. We continue to reach out to civil society and the 
political leadership from the civilian days. We have regular 
meetings. Our new Ambassador there met with the leader of the 
Democrat Party, with the Thai party. A group of former 
parliamentarians was just here a couple weeks ago from all 
parties on one of our IVLP programs, and it was great because 
they said it was their only opportunity to get together and 
talk about politics.
    So we are trying to build up civil society, and we are 
trying to create an environment where change can be made. But 
the Thai polity is in a state of stasis, and we are finding it 
hard to convince them to take the courageous step for them of 
writing a new constitution and letting the people's will decide 
the future.
    Senator Cardin. That sounded like a good diplomatic answer. 
You are well-trained in diplomacy. When you run for the Senate, 
you give up diplomacy. I know it is tough, but I think Thailand 
is just too important of a country and too close to us to allow 
this to just sort of meander without a clear path forward. I do 
not see a path forward at this particular moment. That is very 
frustrating.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you. I think we will go for maybe 10 
more minutes or so on this panel, if we could, and then go to 
the second panel.
    Just to pick up where Senator Cardin left off on that, I 
mean the constitution that was written was scrapped. It was, of 
course, written by a group of people who were appointed by the 
junta to put it together. The new draft is being written by 
somebody who has also been appointed by the junta to do it, I 
believe chairing the committee to do it.
    You cannot have a constitution written that is effective at 
that point, can you?
    Mr. Carouso. The theory is that at the end of whatever they 
write, it will be put to a referendum. I guess there is a 
certain hope that if it is not truly a democratic piece of 
paper, the people will vote against it.
    Senator Gardner. Then the rule continues as it is.
    Mr. Carouso. And that is exactly our concern, that they 
keep rolling this down the road, which is why our main ask of 
them right now is to keep to the schedule and bring in civil 
society to help write the document. Otherwise, it is not going 
to stand the smell test, and they hear us and nod.
    Senator Gardner. So the conversation we had about sort of 
the carrots and sticks and the leverage that I asked about in 
Burma and others, looking at Thailand, either from leverage or 
from a carrot and stick point of view, if we start asserting 
leverage, if we start asserting sticks in terms of trying to 
sway behavior, what impact does China have on that relationship 
with Thailand right now? And how does that affect the 
usefulness of carrots and sticks or leverage?
    Mr. Carouso. Well, Thailand tries to use the leverage of 
China on us, saying do not push us too hard. But there are two 
things. One, we have our principles. Two, we have an 
understanding that the long-term stability of Thailand depends 
on democratic rule, regardless of any short-term shift to 
China. Third, we have historical context, which is Thailand has 
always played its role as setting off regional powers against 
each other, which is how they stayed independent during the 
colonial period.
    So we listen with some concern to their statements about 
China, but I do not think it changes our policy a whole lot.
    Senator Gardner. So right now, in terms of looking out, the 
scenario for military rule, is it indefinite in the point of 
view right now? By 2017, 2018, 2019, we think things will 
change, the constitution is approved?
    Mr. Carouso. We are trying to take them at their word that 
2017 is the next date. We keep telling them that you cannot 
keep delaying that date indefinitely because your people will 
not accept it over time.
    But you know the society is going through transition, and 
that is what they keep telling us. It is partially an excuse, 
but having lived in Thailand, there is a certain truth to it. 
As society developed, as rural Thais demanded a voice in their 
country and their economy, the elite urban Thais resisted. They 
are going through dealing with this.
    This is not to condone it. It is to try to tell you what 
they see as their problem.
    Senator Gardner. Thank you, Mr. Carouso.
    Senator Cardin.
    Senator Cardin. Again, thanks. Let me turn to Malaysia, if 
I might, for one moment. I do not want to lose this opportunity 
with the two of you before our committee.
    Malaysia has been elevated in its relationship with the 
United States as a TPP partner. They got a rather generous 
evaluation in the Trafficking in Persons report, being taken 
off of Tier 3. They have a very serious problem with 
trafficking, which is acknowledged in the Trafficking in 
Persons report, the TIP report. Corruption is still a major, 
major problem in Malaysia. Now we are talking about having a 
trade agreement with Malaysia.
    What should we be expecting during the next 6 months in 
Malaysia? That is the period of time that many of us will have 
to evaluate the TPP before we vote on it. It will be a period 
of time in which we have, I think, maximum leverage.
    So what do we expect? Give me a roadmap of what I should be 
asking for in regard to changes in Malaysia.
    Mr. Carouso. Thank you, Senator.
    Malaysia has been, from Najib's election, a disappointment, 
because we expected so much from him. But especially since 
charges of corruption against Prime Minister Najib about 6 
months ago, they have been really going downhill on civil 
rights.
    We have told him this repeatedly from the highest levels, 
and President Obama is going to tell the Prime Minister about 
our concerns again this weekend when he meets with him.
    I would argue that TPP is actually a very useful tool for 
TIP because under the labor standards chapter of TPP, they have 
to rewrite laws and ensure they have new rules for labor, 
including trafficking in persons, to comply with the rules for 
TPP. Until they get those passed and implemented, TPP will not 
apply to them. So that is within the next 6 months on the TIP 
aspect.
    As far as the political situation, we will continue to keep 
meeting with the Government of Malaysia and encouraging them to 
not use sedition and antiterrorism laws against political 
opponents, to stop violating free speech, and to open up to 
society.
    Senator Cardin. And if they do not, what should we do?
    Mr. Carouso. All I can say is that we will continue to 
encourage them, sir.
    Senator Cardin. You've got the diplomacy down so well.
    Mr. Carouso. I used to be a banker, so I had to be 
retrained.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Busby. I would point out as well that there is a 
specific consistency plan as to Malaysia, as there is to Brunei 
and Vietnam as well, that lays out the very specific 
commitments or very specific things that the Government of 
Malaysia has to do in order for TPP to come into effect. So I 
think we have taken account as to some of the specificity in 
the Malaysia context to try to deal with that through TPP.
    Senator Cardin. There are many aspects to the TPP. We are 
not going to get into a debate about that. But I do agree with 
you that I think Ambassador Froman did do a good job on 
enforcement issues in Malaysia and Vietnam, in regard to the 
implementation and the failure to do so, the specific trade 
relief that will not be granted. So I did note that.
    But having said that, there is a lot more to dealing with a 
country that lacks the same degree of democratic institutions 
to make sure that good governance issues are embedded before 
the TPP goes into effect.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you.
    Just one last question for this panel from me, and if you 
have one too. This will be quick.
    Can you talk a little bit about Southeast Asia, the region, 
South China Sea?
    Mr. Carouso.
    Mr. Carouso. In very general terms.
    Senator Gardner. Please.
    Mr. Carouso. Well, this is, of course, the big geostrategic 
issue of the region. What we have been working on is trying to 
unify ASEAN as a collective to push back against Chinese 
expansionism. We have been trying to get China to agree to a 
halt with ASEAN claimant states to no more reclamation, no more 
construction, and no militarization.
    In fact, when President Xi was in the Rose Garden, he 
announced there would be no militarization of the features that 
they have established. Now the Chinese have, unfortunately, 
walked that back. But we keep citing that. We keep encouraging 
our ASEAN friends to keep reminding the Chinese of that 
commitment. But it is an issue we take very, very seriously and 
work literally every day.
    Senator Gardner. And with the meetings this weekend, you 
anticipate what outcome on the South China Sea?
    Mr. Carouso. I can tell you it will be discussed.
    Senator Gardner. Thank you.
    Thank you to the first panel for your participation today. 
I truly appreciate your time and your work. Thank you.
    Mr. Carouso. Thank you, Mr. Chairman.
    Mr. Busby. Thank you.
    Senator Gardner. If we could be joined now by the second 
panel?
    Our first witness is Ambassador Mark Green, who serves as 
the president of the International Republican Institute. 
Ambassador Green served as U.S. Ambassador to Tanzania from 
2007 to 2009. Prior to serving as U.S. Ambassador, Mr. Green 
served four terms in the U.S. House of Representatives, 
representing Wisconsin's Eighth District.
    Welcome, Ambassador Green. Thank you very much for your 
time, your service, and our opportunity to learn from you 
today. Thank you.

    STATEMENT OF HON. MARK GREEN, PRESIDENT, INTERNATIONAL 
              REPUBLICAN INSTITUTE, WASHINGTON, DC

    Ambassador Green. Thank you, Mr. Chairman and members of 
the committee.
    The International Republican Institute is a nonpartisan, 
nonprofit organization that works in about 90 countries around 
the world promoting democracy. Eight of those countries are in 
Southeast Asia. I think it is safe to say that no region of the 
world these days is at once more challenging and more promising 
than that region, Southeast Asia. In my brief remarks this 
morning, and I obviously have a more extended written 
testimony, I would like to discuss very briefly those countries 
where challenges remain, and then point to a few countries 
where there is progress and there is hope and some reason for 
optimism.
    To begin with, unfortunately, there are countries, as the 
previous panel alluded to, that are suffering from constricting 
civil society space and democratic backsliding. Perhaps the 
clearest example, as you yourself have alluded to, is Thailand 
where a May 2014 military coup has severely curtailed the space 
for civil society and for political discourse. What had been a 
strong flame for democracy and liberty sadly is reduced to just 
a few embers.
    The highly antidemocratic process the government is using 
to draft a new constitution is very troubling. The first 
drafting committee whose members were handpicked by the 
military submitted a draft charter, which was rejected in 
September, meaning that they will have military rule until at 
least 2017. The Prime Minister, a former general who helped to 
orchestrate that 2014 coup, has appointed a new drafting 
committee, which is being led by a figure who himself was 
instrumental in that coup. It is hard to be optimistic about 
the results of the new constitution drafting committee.
    Thailand currently bans international assistance to 
political parties. I think it is shortsighted, and I think it 
serves to stunt democratic progress. We would strongly urge 
that the United States press for an end to this ban at once.
    Thailand is not alone, as you noted, in repressing or 
attempting to weaken democratic institutions. Malaysia has seen 
new infighting among opposition coalition parties and the 
ruling coalition has sharply reduced opportunities for 
compromise. Worse yet, it has taken steps to restrict the 
movement of democracy activists.
    Again, Mr. Chairman, we strongly urge the State Department 
to make this a central part of diplomatic discussions. Malaysia 
must ended these restrictions on democracy activists as soon as 
possible and make it very clear that these activists are not a 
threat to the Malaysia Government. Instead, they are resource 
to the government and an opportunity to advance democratic 
norms.
    Cambodia is another country that is missing opportunities 
to foster democracy. The longtime ruling Cambodian People's 
Party has used the legal system to stifle dissent from 
opposition lawmakers, including the recent issuance of an 
arrest warrant for longtime opposition leader Sam Rainsy.
    The opposition finds itself struggling to consolidate its 
own message and to leverage its modest political powers in the 
face of these actions. It needs help from an active and 
organized civil society.
    The United States should stand ready to help with strong 
democracy assistance to support these institutions, to 
strengthen these organizations. Again, it should be a central 
part of our diplomatic engagement.
    As to Laos, Mr. Chairman, while that government has long 
been repressive and hostile to democratic engagement, in 2009, 
the Lao Prime Minister issued a decree permitting nonprofit 
associations to exist. We at IRI have been working closely with 
several of them.
    Given that next year President Obama will be traveling to 
Laos when it hosts the ASEAN summit, it seems that this is an 
opportune moment for the administration to push for a stronger 
role for groups like IRI and others to foster democracy and to 
strengthen civil society.
    Again, there are reasons for hope. Interestingly, with 
respect to both of the countries which I do think provide 
reasons for hope, the most recent major elections were 
conducted at a time when many outside observers were skeptical. 
Yet they showed that people do want a voice in their own future 
and that civil society, when given a chance, can play a 
constructive role in and create real hope and promise and 
opportunity.
    Indonesia, as was mentioned in the previous panel, is still 
battling issues of corruption. The United States should stand 
at Indonesia's side and should promote assistance that helps to 
empower local NGOs to take on the issue of corruption.
    We should also, as we do with the Millennium Challenge 
Corporation, make it clear that we view corruption as a central 
part of any assistance relationship that we are going to have.
    Finally, Mr. Chairman, with respect to Burma, while there 
is a long way to go, I think the words of Aung San Suu Kyi were 
quite fair with respect to this election. She said that these 
elections were fair, but they were certainly not free. They 
were fair in the sense that they probably expressed the view of 
most Burmese. Now we see that the NLD has the majority it needs 
to make a real difference. Of course, they face tremendous 
challenges, and I think, again, one more time, that we should 
stand with them to help build the capacity to take on those 
challenges and to be far more inclusive in the society that 
they foster and forge going forward.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Green follows:]

              Prepared Statement of Ambassador Mark Green

    Chairman Gardner, Ranking Member Cardin, members of the committee, 
I am honored to have this opportunity to appear before you today. By 
way of background, the International Republican Institute (IRI) is a 
nonprofit, nonpartisan organization working in some ninety countries 
around the world, including eight in Southeast Asia. For over 30 years, 
our broad mission has been to advance democracy; well, it is safe to 
say that no region of the world these days is at once more 
challenging--and more promising--than Southeast Asia.
    In my brief remarks this morning, I hope to discuss the state of 
democracy in some countries where important challenges remain, such as 
Thailand, Malaysia, Cambodia, and Laos. On the encouraging side, I will 
point to several countries that give reason for optimism and a renewed 
faith in the growth of democratic ideals in Southeast Asia, such as 
Indonesia and Burma.
                  challenges and setbacks to democracy
    Unfortunately several countries in Southeast Asia, countries of 
importance to the U.S., are suffering from constricting space, civil 
and democratic backsliding. There is no clearer instance of this 
phenomenon than in Thailand, where the May 2014 military coup severely 
curtailed space for civil society and political actors to operate 
freely. What had been a strong flame for democracy and liberty has been 
reduced to just a few warm embers.
    Thailand is America's oldest treaty ally in Asia and was once seen 
as a democratic beacon in the region. The democratic regression 
manifested by the coup and subsequent manipulation of the 
constitutional reform process is of serious concern for the democracy 
community as well, of course, as Thai citizens themselves. On a recent 
trip to Bangkok, I met with a group of women civil society activists. 
They were clear and passionate in their belief that the space for civil 
society to bring opinions, concerns, and priorities to the military-
controlled government is shrinking rapidly and dangerously.
    The highly antidemocratic process the government is using in 
drafting a new constitution is particularly troubling. The first 
Constitutional Drafting Committee, whose members were handpicked by the 
military, began working on a new constitution in January 2015 and 
submitted a draft charter to the military-appointed legislature in 
September. The legislature has rejected the charter, thus ensuring 
continued military rule until at least 2017. Prime Minister Prayut, the 
former general who orchestrated the 2014 coup, has since appointed a 
new drafting committee, naming a figure who was instrumental in the 
coup to be the committee's new chairman.
    The military leadership's official line is that a new 
constitutional reform is required to rid the political system of the 
hyperpartisan factionalism that has caused corruption and political 
violence in the past. Given the tightly controlled nature of the reform 
process, it is hard not to be very skeptical of whether any government 
that emerges can be a credible representative of the people. In order 
to restore a political system based on leadership emerging from 
responsive political parties, the Thai military government must lift 
the ban on international organizations providing technical assistance 
to Thai parties. Making political party support available to all Thai 
parties will transfer skills promoting modern, issue-based platforms 
and party operations. More professional and responsible political 
parties will alleviate the acrimonious political environment and remove 
the rationale for the military to interfere in politics.
    Mr. Chairman, as you well know, Thailand is not the only country in 
the region going through challenges and government repression. 
Malaysia, has recently seen new infighting among opposition coalition 
parties, and the ruling coalition has sharply reduced opportunities for 
compromise in meeting the country's important political, economic, and 
social challenges. Given increased ethnic tensions and shrinking space 
for dissent, we at IRI worry that both the opposition and ruling 
coalition have diminishing interest in building better democratic 
governance.
    All is far from lost, however, and IRI remains committed to 
increasing the capacity of party leaders and elected representatives to 
speak to priority issues of concern to their electoral base. 
Additionally, to counteract divisiveness in Malaysia, IRI is providing 
opportunities for the growing youth demographic in Malaysia to engage 
in inclusive and moderate policymaking and advocacy. Mr. Chairman, if 
there is an urgent recommendation we can make regarding Malaysia, it is 
that the U.S. pressure the government to end its policy of restricting 
freedom of movement for democracy activists. These individuals are not 
a threat to the Malaysian Government, rather an important resource to 
further advance democratic norms in that beautiful and important 
country.
    Not unlike recent setbacks in Thailand, Cambodia's volatile 
democratic development recently took a turn for the worse. The longtime 
ruling Cambodian People's Party (CPP) has used Cambodia's legal system 
to stifle dissent from opposition lawmakers, including the arrest and 
indefinite imprisonment of an opposition Member of Parliament and the 
recent issuance of an arrest warrant for longtime opposition leader Sam 
Rainsy. What appear to be determined efforts by Prime Minister Hun Sen 
and his party to fragment the opposition severely threaten Cambodia's 
hopes for democratic growth and progress ahead of crucial 2017 commune 
council elections and 2018 national elections.
    To make matters more complicated, IRI's local sources report the 
opposition finds itself struggling to consolidate its own message and 
to leverage modest political powers. It is incumbent upon the 
opposition, bolstered by an active and organized civil society, to hone 
its message and challenge the decades-long rule of the CPP with valid, 
constructive critiques and clear alternative proposals. Given the rapid 
deterioration of the legal and political environment and the deliberate 
dismantling of the opposition by the CPP, IRI urges the United States 
to bolster its democracy and governance assistance to Cambodia and use 
every diplomatic opportunity to express deep concern where the ruling 
government engages in illegal and undemocratic acts.
    Mr. Chairman, I have just spoken of countries where democracy is 
facing great challenges. Now I would like to point to a country--Laos--
where the situation remains dire, however, recent events demonstrate a 
small window of opportunity for activists engaging in civic life. Last 
week, Deputy National Security Advisor Ben Rhodes announced that in 
2016, President Obama will become the first U.S. President to visit 
Laos to attend the Association of Southeast Asian Nations summit. In 
light of the changing dynamics of our bilateral relationship, now seems 
an opportune moment to consider the role we can play in promoting 
democratic reform and development in that nation.
    Laos is a single-party authoritarian political system that rates 
poorly on indicators of government transparency, civic participation, 
and freedom of expression. Civil society in Laos was virtually 
nonexistent until 2009, when in response to international pressure, the 
Lao Prime Minister issued a decree with the first ever process for 
independent civil society organizations (called nonprofit associations, 
NPAs) to register. IRI has been a leader in training many of these new 
independent Lao civic associations. Lao civil society activists face 
daunting challenges; nevertheless, new NPAs are applying for 
registration and established NPAs are ramping up their important work. 
Though the pace of reform is still very slow, with additional resources 
and technical support from the United States, IRI contends the Lao 
civic movement will expand, strengthen, become more independent and 
will increasingly provide feedback to public officials--all important 
benchmarks in a gradual evolution to a more democratic society.
                          reasons for optimism
    The political developments in Southeast Asia are far from all 
negative. Democratic regression in Thailand, Cambodia, and Malaysia 
should not distract us from the positives gains in other parts of the 
region, such as in Indonesia and Burma.
    Indonesia's 2014 national legislative and Presidential elections 
were unquestionably an encouraging new chapter in the country's 
democratic progression. Considering Indonesia's checkered past with 
authoritarianism, the successful transfer of power from one political 
party to another--its first peaceful Presidential level transfer via 
the ballot box--was a significant advancement in the consolidation of 
Indonesia's transition to democracy. With the election of President 
Joko Widodo, the public sent a clear statement about its desire to 
address pervasive problems of economic stagnation and corruption. 
Recognizing the importance of combating nepotism and political 
malfeasance, IRI has launched an innovative program to empower women 
across the country to take the lead on fighting corruption in politics 
and to increase their participation at the subnational level. Much more 
needs to be done. We recommend ramping up support for anticorruption 
measures with a focus on the subnational level. By most measures, 
corruption remains by far Indonesia's biggest impediment to progress.
    Perhaps the most consequential democratic breakthrough in Southeast 
Asia has come in Burma, a nation few would have expected to be in this 
position only a few short years ago. In my recent trip to the region I 
witnessed the increasingly restrictive democratic environment in 
Thailand. But in the second part of my trip, in Burma, where I served 
as a credentialed observer for their historic parliamentary elections, 
I observed the seriousness and enthusiasm with which its citizens 
peacefully went to the polls for the country's first competitive 
election in 25 years. Though glaring gaps remain in the country's 
reform trajectory remain, including rising religious and sectarian 
conflict and a flawed constitutional foundation, Burma represents the 
most positive democratic shift in the region right now and a real 
opportunity for uplifting progress.
    IRI formally began implementing programs inside Burma in 2013. We 
have engaged more than 200,000 individuals from 340 organizations, from 
national political parties to local civil society organizations. Thanks 
to the generous support of USAID, as well as the Canadian Government 
and working closely with our fellow nonprofit organizations the 
National Democratic Institute and the International Foundation for 
Electoral Systems, we are proud of the role IRI and the democratic 
community have played in fostering new hope in that country.
    On November 8 in Burma, with dedication, patience, and a firm 
belief in democracy, millions of voters exercised their right to vote, 
often under difficult conditions. The ruling party exercised 
commendable restraint--something that surprised many observers. With 
the results indicating the National League for Democracy now controls a 
two-thirds majority of seats in the lower and upper Houses of 
Parliament, these bodies will now represent a clear expression of the 
desire for continuing democratic reform in Burma. Of course, the 
elections serve as only one element of an ongoing and long-term 
political process that is now unfolding in the country. As the dust 
settles from the elections, this important work will continue in 
earnest. As we have seen in many countries around the world, including 
in Southeast Asia, successful transitions take persistence, time and 
patience. It will be important for the United States to support a long-
term view while insisting in the short-term on maintaining momentum for 
reform.
    As experience has shown us, the period after elections is when the 
hard work truly begins. Voters' faith in these new democratic processes 
will only be as strong as the capacity of elected officials to 
effectively respond to voters' needs and to adapt accordingly. When--or 
even before--the new Parliament convenes next year, newly elected 
legislators will need critical skills, and developing their capacity to 
engage with citizens and providing them with independent data to make 
evidence-based decisions will be critical.
    As the dust settles from these elections and Burma navigates the 
uncharted territory of becoming a representative democracy, IRI 
recommends that international support should be boosted significantly 
to strengthen and consolidate democratic institutions. The United 
States Government should provide technical support to the newly elected 
legislature, including on budgeting, legislative drafting, ethics, and 
constituent outreach to provide many first-time officials with the 
skills to effectively represent their constituents. IRI also recommends 
the U.S. continue its vocal support of the peace process in Burma to be 
inclusive of ethnic minority political parties, civil society 
organizations and other marginalized groups. A peace process that leads 
to a comprehensive and lasting ceasefire and political dialogue will 
make an important contribution to democratic consolidation in Burma as 
it could remove the rationale for the oversized role of the military in 
Burmese politics.
                        general recommendations
    With respect to the administration's policies in promoting 
democracy and governance in Southeast Asia, I am grateful to USAID and 
the State Department for their support, and urge continued funding in 
each of the countries discussed today. To be honest, I am concerned by 
the analysis conducted by InterAction that shows that funding for 
democracy and governance programs worldwide is down 38 percent since 
2010. Further, history shows that these cuts are often made worse by 
``raids'' in these funds for other new priorities and initiatives. 
During these consequential times in Southeast Asia and around the 
world, now is not the time to cut funding, but rather to double down on 
our investment in democracy and governance programming.
    Finally, IRI recommends the committee consider the importance of a 
regional approach to democracy development in Southeast Asia. The U.S. 
should continue to support the Association of Southeast Asian Nations 
(ASEAN) as a unifying regional body and should encourage ASEAN and its 
individual member states to prioritize development of transparent and 
inclusive democratic governance both within the individual states and 
in ASEAN's regional mechanisms. In addition, the U.S. should engage in 
and support regional initiatives like the ASEAN Civil Society 
Conference/ASEAN People's Forum that amplify civil society voices in 
the region, create strong networks among the region's diverse civil 
society organizations, and ensure marginalized groups can provide input 
and raise concerns about developments in the region.
                               conclusion
    Mr. Chairman, the United States has long-standing economic, 
political, and cultural ties to this region that should not only 
continue, but be deepened at every possible turn. Home to 625 million 
people, Southeast Asia as a market is the fourth-largest export 
destination for the United States after Canada, Mexico, and China. Half 
of the world's trade passes through its sea lanes.
    The countries throughout Southeast Asia remind us that nothing 
about advancing democracy should be taken for granted; indeed, cases 
such as Burma vividly illustrate that democracy must be fought for each 
and every day, and that it can only succeed with a strong commitment 
from all stakeholders. We in the United States are a leading 
stakeholder in this effort in Southeast Asia. By sharing our resources, 
experience, and technical expertise, we align ourselves with the words 
of Ronald Reagan in his 1982 speech to the British Parliament: ``We 
must be staunch in our conviction that freedom is not the sole 
prerogative of a lucky few, but the inalienable and universal right of 
all human beings.''

    Senator Gardner. Thank you, Ambassador, for your testimony.
    Our next witness is Mr. Murray Hiebert, who serves as 
senior fellow and deputy director of the Sumitro Chair for 
Southeast Asia Studies at the Center for Strategic and 
International Studies. Prior to joining CSIS, he was senior 
director for Southeast Asia at the U.S. Chamber of Commerce, 
where he worked to promote trade and investment opportunities 
between the United States and Asia.
    Welcome, Mr. Hiebert.

STATEMENT OF MURRAY HIEBERT, DEPUTY DIRECTOR AND SENIOR FELLOW, 
SUMITRO CHAIR FOR SOUTHEAST ASIA STUDIES, CENTER FOR STRATEGIC 
           AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Mr. Hiebert. Thank you, Chairman Gardner and Ranking Member 
Cardin. It is a real privilege to be here to talk about the 
most important region of the world, Southeast Asia.
    If you are the fourth speaker, I think all of us are 
probably going to roughly conclude that Southeast Asia has a 
very mixed picture on the human rights front. I think over the 
last 2 weeks, we have had a lot of excitement coming out of 
Myanmar-Burma. But of course, the election was flawed, and the 
biggest challenges are yet before us. We played one inning of 
the game and we have eight innings to go in terms of seeing how 
the military responds to Aung San Suu Kyi's election, how they 
move forward with ethnic minorities, treatment of the Rohingya, 
and a raft of other problems.
    As the previous speakers also said, Indonesia is a pretty 
good story. Over the last decade, it has moved forward with 
becoming a model in the region for orderly transfers of power 
and multiparty democracy. That does not mean it does not have 
rafts of problems. You earlier talked about corruption. There 
are minorities facing discrimination and those kinds of things.
    The other pretty good story is the Philippines, which I 
guess I called in my report a middling democracy. Their 
elections are fairly fair and free, but vote-buying is pretty 
widespread. A lot of the politics is run by political 
dynasties, and they have a very poor regulatory environment, 
widespread corruption, et cetera.
    Vietnam, it is still run very much by an authoritarian 
communist party but yet the situation probably has eased over 
the last decade or so. And interestingly, this year, no 
bloggers seem to have been arrested. The national assembly 
plays a bigger role. And we saw in the negotiations for the TPP 
that Vietnam agreed to allow a free labor union. If they do 
not, they are not going to get the benefits of tariff 
reductions.
    We have talked quite a bit about Thailand already. 
Obviously, that country has slipped back miserably and so has 
Malaysia, as our previous speaker said. The differences on 
Thailand and Malaysia, two countries I have actually lived and 
worked in, the differences now between previous authoritarian 
times is that the population just demands so much more. In the 
long run, Thailand, the junta in Thailand and Najib and the 
ruling coalition in Malaysia, are really going to have nothing 
but grief if they do not respond to the demands for more 
freedom, less corruption, as people are much more aware, much 
more educated. So I have to be hopeful there, in the long run, 
not tomorrow.
    On United States, specifically, to talk about policy toward 
Thailand, and some of this has already been addressed, State 
really cut back on military assistance but kept a lot of the 
other engagement. I would argue that is roughly the right mix 
for Thailand. You can only push them so hard. They are really 
important to the United States on all kinds of levels. There is 
a lot that happens with Thailand in terms of Cobra Gold. It is 
one of the biggest embassies, a lot of health cooperation, a 
lot of cooperation within ASEAN. And the United States really 
risks damaging some of its strategic interests, if it pushes 
Thailand too hard, because pushing harder is not going to get 
us any further.
    You also asked me to talk a bit about pressure versus 
cooperation, and you quoted me earlier. I guess what I would 
say on pressure, on Myanmar-Burma, I think the sanctions, 
certainly, pushed them, but had the United States insisted on 
keeping the sanctions in place that were in place until 2011, 
2012, the elections would not have been possible. What made it 
possible is the beginning of engagement. And so they realized 
they were being left behind and really to benefit from global 
integration, they had to move. So I think obviously a lot of 
domestic stakeholders were important, but the United States 
played some role by starting to engage them.
    The same is actually true of Vietnam. They are moving, 
liberalizing, not democratizing but liberalizing, thanks to 
increased engagement.
    And then finally on the U.S. approach in the region, I 
think some of the aid that Jim Carouso and Mr. Busby alluded to 
earlier in terms of USAID projects in Burma, on building 
capacity in developing rule of law, in transparent governance, 
robust civil society, played a significant role. The same in 
Vietnam. We are now starting to see the Vietnamese National 
Assembly be open to having advisers in the National Assembly on 
revising the country's criminal code.
    You asked also if there are any final recommendations of 
change of policy. I guess one thing I would say is, if the 
military keeps moving in Myanmar--and that is an ``if''; I 
would really emphasize the ``if''--if it keeps moving and 
cooperating with Aung San Suu Kyi and with minority groups, at 
some point we have to consider letting the military see the 
benefits of longer-term cooperation and starting to talk to 
them, not giving them IMET, but beginning to talk to them more.
    Thank you very much.
    [The prepared statement of Mr. Hiebert follows:]

                  Prepared Statement of Murray Hiebert

    Some observers argue that the process of democratic reform in 
Southeast Asia has been thrown into reverse gear over the past decade 
or so. Of course, there are many examples of backsliding and setbacks, 
but at a macro level, the general trend is toward improving democracy 
in the region, even if fitfully. Generally, we see the region's growing 
middle class, as it acquires more education and money along with 
increased access to technological innovations and social media, 
clamoring for increased freedoms, more transparency, access to 
decisionmaking, stronger institutions, and accountability by its 
leaders. This is a change from the bad old days when most of the region 
was ruled mainly by strong men.
    The most exciting story at the moment is occurring in Myanmar/
Burma, where opposition leader Aung San Suu Kyi last week scored a 
landslide victory over the party of the generals that ran the country 
for 50 years, despite flaws in the voting process. In the weeks ahead, 
observers will be watching how the military handles the transition to a 
democratically elected leader. The election was the culmination of a 4-
year reform process under which most political prisoners were freed, 
journalists were given considerable latitude to operate, and the 
Parliament began debating and passing laws and legislation which 
sometimes bucked the wishes of the ruling elite.
    Of course, huge challenges remain going forward including relations 
between the military and the civilian government, the peace process 
with the armed ethnic groups, treatment of the Muslim Rohingya who were 
disenfranchised under the outgoing government, and the need to build 
the rule of law and tackle economic reforms and development. 
Nonetheless, Myanmar/Burma today is a much different country than it 
was a few years ago. Some analysts even wonder if the military's 
acceptance of the election results in Myanmar/Burma could serve as a 
role model for its neighbors at a time when their leaders are pulling 
back from democracy.
    In Indonesia, by far the largest Southeast Asian country, a new 
President was sworn in in October 2014 following a highly competitive 
election that could have turned out quite differently. Less than two 
decades after authoritarian President Suharto was forced to step down, 
Indonesia has over the past decade emerged as a model for orderly 
transfers of power and multiparty democracy in Southeast Asia. Within 
ASEAN, Indonesia had an important role to play in gradually nudging the 
former military government in Myanmar/Burma to adopt democratic 
reforms.
    To be sure, problems remain. The anticorruption agency, a well-
respected institution in Indonesia, has lost ground over the past year 
amid political disputes. Religious minorities, particularly Shia 
Muslims and Christians, often face discrimination. State security 
forces still get away with ``widespread impunity''for human rights 
abuses, particularly in the western province of Papua, where a low-
level pro-independence insurgency remains active, according to Human 
Rights Watch.
    A large literary festival in Bali was recently forced by 
authorities to remove a program discussing the 1965 mass killings. Two 
British filmmakers were recently sentenced to 2 months in jail for 
attempting to make a film about piracy in the Strait of Malacca. 
Widespread corruption remains a problem within the government, the 
judiciary, and among security forces. At the same time, the army 
appears to be regaining some political clout and is working to retain 
its role in internal security.
    The Philippines, which is preparing for another round of elections 
next year, might be labeled a ``middling'' democracy. The 2013 mid-term 
elections were regarded as generally free and fair by most outside 
observers, although vote buying was widespread. Political dynasties are 
thoroughly entrenched in Philippine politics, with the President and 
three top candidates for the 2016 Presidency all part of well-
established political families.
    Governance remains hobbled by a relatively poor regulatory 
environment, widespread corruption, and weak rule of law. President 
Benigno Aquino has made anticorruption a priority and it has born some 
fruit. Arrests of some high-profile individuals, including his 
predecessor Gloria Macapagal-Arroyo, have been touted as evidence of a 
commitment to tackle corruption, but not all offenders have been 
brought to justice. Many observers are uncertain whether the 
Philippines will stay on the path of greater governance reforms after 
Aquino steps down in mid-2016.
    Extrajudicial killings are perhaps the biggest human rights issue 
in the Philippines. Political rivals are the usual targets, but 
journalists face serious danger, too. The Philippines is the third most 
dangerous country in the world for journalists, behind Iraq and Syria.
    Vietnam, meanwhile, remains an authoritarian state headed by the 
Communist Party. Elections are held every 5 years for the National 
Assembly, but competition is limited to candidates vetted by bodies 
affiliated with the ruling party. Human rights organizations are 
concerned about Vietnam's detention of peaceful activists (often on 
charges of ``abusing democratic freedoms to infringe upon the interests 
of the state''), strict controls of the press, and the frequent arrests 
of bloggers. That said, no arrests of bloggers have been reported 
arrested this year.
    While politics is tightly controlled in Vietnam, society is much 
more open than it was 10 years ago. Unlike in China, the Vietnamese 
Government does not try to control social media discussions or block 
Facebook. The National Assembly, Vietnam's lawmaking body, plays an 
increased government oversight role, frequently calling in ministers 
for questioning about their policies and requesting government-drafted 
laws to be amended, rather than merely serving as a rubberstamp for 
party and government decisions. Most notably, Vietnam has agreed to 
allow labor unions to form and operate freely from government control 
under the Trans-Pacific Partnership (TPP) trade agreement.
    Thailand is one country that has slipped backward on the democracy 
scale over the past decade. In May 2014, the military ousted the 
civilian elected government for the second time in 8 years, following 6 
months of disruptive political protests. Once home to the most vibrant 
media landscape in Southeast Asia, journalists in Thailand were ordered 
not to publish articles critical of the military, and public gatherings 
of more than five people were banned. Scores have been detained for 
participating in illegal gatherings or staging peaceful rallies.
    The military considers comments critical of the monarchy (lese-
majeste) to be a criminal offense, and has brought more than a dozen 
cases to the courts, which impose sentences of up to 15 years for 
offenders. At least two suspects in an ongoing, high-profile lese-
majeste case have died in police custody in recent weeks. In September, 
a journalist was pressed to resign from an English-language paper after 
he had been detained in a military camp for ``attitude adjustment'' for 
critical reporting about the government.
    The first attempt by a military-appointed committee to draft a new 
constitution was rejected by a reform council that was appointed by the 
military. A second draft is expected by January 2016. If it is approved 
in a subsequent referendum, elections for a new government could be 
held around mid-2017.
    Malaysia is also in a slide toward authoritarianism. Early this 
year, former opposition leader Anwar Ibrahim was imprisoned for a 
second time on sodomy charges in an apparent attempt to sideline the 
charismatic leader. Between February and July, over 150 lawmakers, 
lawyers, journalists, academics, and activists were detained on charges 
of sedition or for violating the Peaceful Assemblies Act. Two 
publications were shut down for several months in July for reporting on 
apparent mismanagement in the state investment fund 1Malaysia 
Development Bhd (1MDB). A Deputy Prime Minister and the attorney 
general were ousted in July for comments critical of Prime Minister 
Najib Razak's handling of the 1MDB scandal.
                      u.s. policy toward thailand
    After the coup in Thailand, the U.S. Government faced two-competing 
challenges: support electoral democracy and maintain diplomatic 
relations with a treaty ally.
    The State Department announced immediately that it was reviewing 
all U.S. assistance to the country, and suspended $3.5 million in 
unspent military assistance for training and education programs. It 
also suspended funds for International Military Education and Training 
(IMET) that have totaled about $1.3 million in recent years, and 
cancelled several military exercises. Washington also scaled back the 
annual Cobra Gold exercises held in February 2015.
    But the United States continued most other engagement and 
cooperation with Thailand, while urging the military to restore 
democracy as soon as possible. At the same time, Washington continued 
to press the military to lift its orders restricting freedom of 
expression, peaceful assembly and other civil and political rights, and 
end the use of military tribunals to try civilians.
    In responding to Thailand's political crisis, the U.S. Government 
implemented roughly the right policy mix of balancing consistency in 
U.S. foreign policy supporting democracy and human rights with a focus 
on sustaining a strong and unified ASEAN as the core of regional and 
security architecture. U.S.-Thai cooperation runs deep, and to damage 
these ties risks harming U.S. strategic interests in Southeast Asia. 
Beyond the annual Cobra Gold exercises and long-standing cooperation on 
military health research such as drug resistant malaria, the U.S. 
Embassy in Bangkok is one of the largest in Asia and serves as the base 
for a raft of U.S. activities in the region, including as the regional 
headquarters for the U.S. Agency for International Development (USAID), 
narcotics interdiction, and the Federal Bureau of Investigation.
    The United States risks losing geopolitical ground in the region if 
it fails to manage this difficult patch in Thailand's political 
development. The military has assumed political control in order to 
ensure it manages the royal succession after the ailing king dies. More 
than a few observers say it is unlikely that we will see real 
democratic elections in Thailand until the succession takes place.
    Thailand's relations with China have steadily expanded over the 
past two decades, and it seems that Beijing incrementally steps up its 
ties with the Thai military every time Washington pulls back. The 
United States needs to find ways to demonstrate that it remains a 
friend of Thailand, one of its longest treaty allies in Asia, and not 
be seen as turning its back on the country when politics enter a rough 
patch, while still remaining true to U.S. democratic ideals.
               impact of u.s. pressure versus cooperation
    It is of critical importance that the United States makes its views 
on democracy and human rights known to governments in Southeast Asia. 
But there are few, if any, examples where pressure and sanctions have 
had the desired effect of pushing a regime to reform, unless it has 
begun moving in that direction due to internal pressures. Generally, 
the United States has the most impact as a champion of democracy in the 
region when it leads by example rather than by carrying a stick.
    The junta in Burma/Myanmar refused to budge in the face of years of 
sanctions from the United States and other Western countries until it 
came to the realization on its own that it was being left far behind by 
its neighbors. The regime started its reforms by releasing political 
prisoners and freeing up the media when it recognized it would reap 
strategic and economic benefits through international engagement. The 
country's recent elections, which saw the election of Aung San Suu 
Kyi's party, would have been impossible if the military-backed regime 
felt it faced pressure and isolation rather than engagement and support 
from the United States.
    Vietnam also stepped up its reforms and eased its tough political 
controls in the mid-1990s as the United States prepared to lifts its 
trade embargo and normalize relations. Since then, Vietnam has released 
more political prisoners (it still holds around 100), and has eased its 
restrictions on religious groups and the media. Washington got a 
dividend in its relations with Hanoi from the collapse of the Soviet 
Union and more recently from China's assertiveness in the South China 
Sea, which pressed the ruling party to look to expand its foreign 
relations, including with the United States. Similarly, Vietnam's 
leadership decided to join the TPP negotiations and agreed to reform 
its legal system out of its recognition that the government would face 
greater internal challenges if it does not reform itself and respond to 
the needs of its citizens.
                  current u.s. approach in the region
    Of course, there were many stakeholders in Myanmar/Burma who 
deserve credit for working hard to make the recent elections as free 
and inclusive as they were. But foreign players such as the United 
States also warrant credit for working hard on a broad range of 
assistance programs over the last 3 or 4 years. USAID played a critical 
role in building capacity and awareness through its projects targeted 
on developing rule of law, transparent governance, robust civil 
society, a vibrant parliamentary system, an independent media, and 
preparations for elections.
    In Vietnam, the United States provided assistance to help the 
government implement the massive legal and regulatory changes needed to 
implement the bilateral trade agreement between the two countries and 
Vietnam's accession to the World Trade Organization. U.S. programs 
helped train judges and develop the legal system for commercial dispute 
settlement and protecting intellectual property rights. These programs 
laid the foundation for the U.S. Embassy to begin advising the National 
Assembly on revising the country's criminal code.
    Similarly, in the Philippines, the USAID has launched a Partnership 
for Growth program, which seeks to address governance problems, 
strengthen rule of law and anticorruption measures, and spread the 
benefits of fast economic growth to ordinary Filipinos.
    These U.S. assistance programs have been highly effective in 
promoting democracy among countries in the region and could be expanded 
to include other countries.
    Assuming the transition in Myanmar/Burma proceeds relatively 
smoothly over the next few months, one issue the U.S. Government will 
have to address is military-to-military ties. To be sure, the Myanmar 
military has been involved in many serious abuses over the past few 
decades, and reports indicate that it continues to launch air and 
ground offensives against armed ethnic groups in areas bordering China, 
even as most of the country held peaceful elections. But if it 
continues to cooperate with a new civilian government, Washington may 
want to give the U.S. military a green light to increase contacts with 
the Myanmar military to ensure that it feels engaged in the transition 
and sees potential benefits down the road of continuing to support the 
democratic transition.

    Senator Gardner. Thank you, Mr. Hiebert.
    Our final witness on the second panel is Ms. Kelley Currie, 
who serves as the senior fellow with the Project 2049 
Institute. Ms. Currie is also the founding director of the 
institute's Burma Transition Initiative. She has previously 
served as Asia policy adviser to the Under Secretary for 
Democracy and Global Affairs and as foreign policy adviser for 
then-Representative John Porter from Illinois.
    Welcome and thank you for your testimony today.

          STATEMENT OF KELLEY CURRIE, SENIOR FELLOW, 
          PROJECT 2049 INSTITUTE, ARLINGTON, VIRGINIA

    Ms. Currie. Thank you, Chairman Gardner and Ranking Member 
Cardin, for giving me the opportunity to come to speak at this 
important and timely hearing today.
    I am going to focus my remarks on Burma, since I just 
returned from there, and do a little bit of a deeper dive on 
that country since Murray did such a great job covering the 
waterfront in the region. But I would be happy to address other 
countries and the broader region during the Q&A.
    After working in support of democracy and human rights in 
Burma for much of the past 20 years, including as a young 
congressional staffer, it was profoundly affecting for me to be 
in Burma for the November 8 elections. It is hard to overstate 
the NLD's accomplishment in achieving a governing majority, 
despite all the barriers that were erected to keep them from 
doing so. It is something for which the NLD, its leader Daw 
Aung San Suu Kyi, and the Burmese people deserve tremendous 
credit.
    It has been a source of constant amusement and frustration 
to me how many outside and internal observers within Burma have 
consistently underestimated how strong the NLD is in Burma, how 
well-organized it was at the grassroots level, and deeply 
integrated into the communities they were, and how well they 
knew their electorate.
    It also has been a source of frustration how the experts 
have completely underestimated just how frustrated the Burmese 
people were with living under the rule of the military 
government, both direct and indirect.
    I think that these election results are a clear repudiation 
of the military's rule in Burma for the past 60 years, and the 
role that they have played in destroying a once thriving and 
potentially very wealthy country in the region.
    But I have to say we are not out of the woods yet. The NLD 
and others have filed complaints about large and suspicious 
tranches of out-of-constituency advance votes in Shan and 
Kachin states. Yesterday, there was an announcement by the 
union election commission or by someone in the senior ranks of 
the USDP that they could be filing complaints against up to 100 
NLD candidates to try to disqualify them from the election.
    So I do not think we can give the union election commission 
a passing grade, which some have already done, with regard to 
these elections without credible investigations into both the 
serious allegations on the out-of-constituency advance voting 
and how they dispose of these potential complaints against NLD 
candidates, which are likely to be quite specious.
    The other dark cloud that hangs over this election is the 
legacy of disenfranchisement of Burma's Muslim population, both 
as candidates and voters. The USDP's despicable effort to use 
anti-Muslim sentiment as a political weapon seems to have 
backfired in the near term, but let us not fool ourselves that 
the sentiments that they tapped into or hoped to tap into have 
disappeared.
    The situation remains very tense in Burma, and it will be a 
generational project to build a more tolerant society. The 
forces of intolerance, such as Ma Ba Tha, the Association for 
the Protection of Race and Religion, will regroup and adapt. 
Leadership that seeks to heal divisions rather than exploit 
them will be critical in stemming the influence of these forces 
going forward.
    While the Tatmadaw and the USDP leadership have repeatedly 
stated their commitment to turn over power to the NLD in 
accordance with the law--and these are the key words, ``in 
accordance with the law''--exactly how this will happen remains 
to be seen. President Thein Sein and the commander in chief, 
Min Aung Hlaing, have delayed meetings with Aung San Suu Kyi to 
discuss the transition until the end of the year.
    We have seen little in the way of conciliatory behavior up 
till now. Political prisoners continue to be held. Offenses 
against ethnic nationalities continue. Humanitarian access 
continues to be problematic in Shan, Kachin, and Rakhine 
states.
    In the near term, we need to express our clear expectation 
to the lame-duck government that they should immediately take 
steps to address these three issues. It is within their power, 
and they can do this very easily in the next 4 months before 
they give up power in April, if they do.
    Looking ahead to April 2016, I think we need to think about 
how U.S. policy should be adjusted to account for Burma's 
evolving political situation. But I think we also need to 
consider the problems that were created by our own moves away 
from a principled approach toward a more pragmatic approach in 
Burma.
    I frequently heard from civil society and political 
democratic friends how frustrated they were with the United 
States appearing to move so close to the Thein Sein government 
over the past 5 years and how they felt often abandoned by the 
United States as a result.
    They were also deeply concerned by the way the United 
States carried out its assistance programs in Burma, appearing 
to have privileged relationships with the government and with 
large NGOs rather than working to support real civil society at 
the grassroots levels.
    These are serious issues that we need to think about going 
forward as we try to help consolidate democracy in Burma.
    Thank you.
    [The prepared statement of Ms. Currie follows:]

                    Prepared Statement Kelley Currie

    Thank you Chairman Gardner, Ranking Member Cardin and other members 
of the subcommittee for the opportunity to testify before you today on 
the state of democracy in Southeast Asia. This is an important and 
timely hearing, and I am privileged to be able to share some thoughts 
on this subject today.
    After working in support of democracy and human rights in Burma for 
much of the past 20 years, including as a young congressional staffer, 
it was profoundly affecting for me to be in Burma for the November 8, 
2015, elections. I watched this historic event from one of the most 
remote, poorest parts of the country: Falam township, in Chin State, on 
the Burma-India-Bangladesh border. When the early unofficial results in 
Falam showed an NLD landslide, it seemed likely to me the NLD would do 
very well in the elections, including in at least some ethnic areas. 
But I will happily admit that I was as surprised as anyone else at the 
scope and depth of the NLD's victory. I knew the NLD should win a 
majority of the popular vote, but was concerned about the substantial 
structural barriers and institutional biases that the ruling party and 
military had set up to keep the NLD from achieving a governing majority 
of not less than two-thirds of the elected seats in Parliament. It is 
hard to overstate the NLD's accomplishment in achieving a governing 
majority, and it is something for which the NLD, its leader Daw Aung 
San Suu Kyi, and the Burmese people themselves deserve tremendous 
credit.
    While Daw Suu's star power was the major factor in the NLD's 
ability to pull off such an overwhelming victory, there were a few 
other things that jumped out at me over the course of the elections. 
The NLD was by far the most organized party in Falam, and apparently 
nationwide: their observers had tally sheets, their local office was 
taking in results from the field systematically and knew where things 
stood all day. In Falam, they were still getting out the vote when 
other parties had given up on that, and they knew their vote totals for 
Falam well before preliminary consolidation at the township office. I 
understand that the situation was much the same across Burma. By the 
time I arrived at the NLD's Rangoon headquarters on the day after the 
elections, the party knew they had locked in a governing majority well 
before the official count made that clear. As someone who used to work 
on these things for a living, I was particularly impressed by their 
parallel vote count operation, very little of which had been 
telegraphed beforehand. It was top notch and its organizers deserve 
huge credit.
    Second, I suspect that Burma's schoolteachers may have been among 
the NLD's most powerful secret weapons at the grassroots level. As 
government employees, they were forced to join the ruling Union 
Solidarity and Development Party (USDP) and its predecessor mass 
organization, the Union Solidarity and Development Association (USDA). 
Successive military-led governments forced them to work in an anti-
intellectual climate that intentionally sought to keep the population 
ignorant. But it turned out that many of these teachers were secret (or 
maybe not so secret) NLD supporters. Given their central role as 
Election Day workers, they likely helped to keep the vote clean and 
more credible than it otherwise might have been.
    Further to this point, many outside observers underestimated how 
well integrated the NLD was into the local communities and how well 
they knew their electorate. In conversations with some of the more 
educated and ``higher information'' voters in this small ethnic 
mountain township, it was interesting to see how they viewed the 
regional parties and the NLD. The young Chin pastor of the largest 
church in town, whose family members are heavily involved in one of the 
ethnic parties told me he personally was voting NLD because he did not 
think it made sense for the future of Chin State to have such regional 
parties but rather it would be better to support the NLD and help them 
to wrest control of the government for the greater good. While this 
level of analysis may not have been typical of the average voter in 
Falam, I often I heard this sentiment in various forms.
    One of the biggest lingering questions about the elections is, 
given the many 
tools at its disposal, how and why the ruling USDP allowed itself to 
get beaten so soundly? My personal view is that the USDP believed they 
would do well enough, without engaging in massive fraud, to peel off 
the 80 or so seats they needed in conjunction with the military's 25 
percent block to keep the NLD from forming a governing majority in 
Parliament. Therefore, they calibrated their manipulation of the 
process in the expectation of nudging a much closer vote in their 
direction. However, in the face of such a massive NLD landslide, these 
manipulations were clearly insufficient. In fact, I believe that if the 
USDP had been aware of just how badly they were doing, we would have 
seen far more of the kind of manipulation that characterized USDP 
victories in heavily militarized areas of Kachin and Shan states. As it 
is, the NLD and others have filed complaints about the large and 
suspicious tranches of out-of-constituency advance votes in Shan and 
Kachin states. I do not believe that the Union Election Commission can 
receive a passing grade for these elections without a credible 
investigation into the serious allegations of fraud around these votes.
    The other dark cloud that hangs over this election is the legacy of 
disenfranchisement of Burma's Muslim population, both as candidates and 
voters, and the USDP's despicable effort to use anti-Muslim sentiment 
as a political weapon. As many have noted, this will be the first time 
in Burma's history that its Parliament will not include Muslim members. 
I hope the NLD will take steps to address this problem going forward, 
and ensure that future elections are not likewise marred by such 
discriminatory practices. Further, I am hopeful--but not convinced--
that those who believed this tactic would be effective have been 
persuaded from using it in the future. The sentiment that they hoped to 
tap into has not disappeared. It will be a generational project to 
build a more tolerant society in Burma and the forces of intolerance, 
such as MaBaTha, will regroup and adapt. Leadership that seeks to heal 
divisions rather than exploit them will be critical in stemming their 
influence going forward.
    Beyond these issues, the NLD and Daw Suu will inherit a country 
that has been severely damaged by nearly six decades of brutal, 
incompetent, and venal military rule. The problems she faces as leader 
are well known, including but not limited to: an entrenched military 
ruling class that is both philosophically and personally opposed to her 
leadership; long-running and brutal conflicts in Burma's ethnic 
periphery which have only partially been addressed by the so-called 
``peace process'' led by Thein Sein's government; massive social, 
educational, economic and health deficits wrought by misgovernment and 
misallocation of resources; a low-trust society riven with cleavages 
that were only partially masked by the elections; an economy that is 
just starting to heal itself from decades of plunder and bizarre 
policies; and growing drugs and related public health problems that 
have mutated as they spread from Burma's borderlands. The NLD must 
attempt to manage these problems while the military and its allies who 
perpetuated them retain substantial means to thwart improved 
governance: a veto on change to Burma's deeply undemocratic 
constitutional framework; more than a quarter of the seats in the 
Parliament; deep penetration into the country's bureaucratic and 
governance structures; and a monopoly on the legal use of coercive 
force.
    The NLD will also have to contend with voters' expectations and the 
inherent dangers of such huge majorities operating within such a 
confined political space. Given the decades of misrule that got Burma 
into its current condition, it would be difficult for anyone or any 
party--no matter how spectacularly gifted or qualified--to meet the 
Burmese public's expectations. The NLD is lucky, however, that they 
benefit from enormous good will; as long as they do not abuse it, they 
should be given a relatively long leash by the people. Among those who 
have ridden the NLD wave to victory are a new generation of leaders. 
They are young, smart and diverse people who represent the future of 
the party and I hope they will be given opportunities to lead. For 
example, the new Parliament will include at least 80 former political 
prisoners in its ranks. Their voices will be important ones in pursuing 
justice and legal reform--two areas where the NLD seems likely focus 
early on--and they know well that despite the overwhelming electoral 
victory, the Tatmadaw will not give up any ground easily. I have also 
had long discussions with NLD economic policy advisors and am confident 
that they are working on policy prescriptions that will stabilize and 
promote cleaner, more broad-based and equitable growth.
    One of the biggest and most urgent challenges for the NLD will be 
its strategy for peacemaking and political dialogue with Burma's ethnic 
nationalities. The so-called Nationwide Ceasefire Agreement (NCA) 
signed by the government and eight ethnic armed groups in October is a 
potential platform for further efforts, but many parties on all sides 
have concerns about both the process and substance that underpinned 
that effort. The perhaps biggest challenge is the level of cooperation 
the NLD can expect from the Tatmadaw. On this front, the picture is 
worrying, given how the military has launched several major new 
offensives in Shan and Kachin states since November 8. Likewise, the 
NLD does not have substantial technical expertise in negotiations, but 
seems unlikely to retain much of the infrastructure that the USDP 
developed for that purpose given its close association with the 
outgoing President Thein Sein. The NLD majority will include a cadre of 
newly elected representatives drawn from nearly all of Burma's ethnic 
nationalities, as well as a number of new Burman MPs with strong 
backgrounds working in multiethnic coalitions in civil society and 
other forums. The NLD's somewhat ``scorched earth'' strategy toward the 
regional ethnic parties left substantial hurt feelings in its wake, and 
the party's relationships with other ethnic leaders are wildly 
variable. The NLD will need to reach out to ethnic leaders who were not 
part of its winning coalition, including political party and armed 
group leadership. So far, Daw Suu and the NLD has called for her party 
to be magnanimous in victory, but there is little indication this has 
been operationalized on any meaningful level with regard to ethnic 
leaders.
    Further to this, one of my biggest worries is that because the USDP 
and Tatmadaw will represent its only functional parliamentary 
opposition, the NLD will become entrenched in oppositional politics 
with the military and unable to break free of structural constraints on 
policymaking and implementation. What will happen to the USDP as a 
party is also an interesting question. The party was decimated: it 
appears to have won only 10 percent of seats nationwide, and many of 
its top leaders lost their constituencies. While the Tatmadaw and the 
USDP leadership have repeatedly stated their commitment to turn over 
power to the NLD, exactly how this will happen remains to be seen. 
President Thein Sein and Commander in Chief Min Aung Hlaing have 
delayed a meeting with Daw Aung San Suu Kyi to discuss the transition, 
and we have seen little else in the way of conciliatory behavior up to 
now. In the past, the Tatmadaw has used its institutional position to 
manage situations into its favor. They have shown they are not above 
provoking societal conflict or sacrificing societal goods in order to 
maintain their prerogatives. There is no indication this institutional 
posture has been changed as a result of elections that really did not 
alter their status quo from a legitimacy perspective, and have yet to 
alter it from a functional one.
    Since the election results became clear, there has been a flood of 
expert commentary questioning how well Daw Suu and the NLD will be able 
to govern, given their lack of experience. On this point, I would note 
her response to these questions: ``We could hardly do worse.'' While 
Burma's problems do seem overwhelming, it is important to note how 
consistently many Burma ``experts''--both international and domestic--
have underestimated Daw Suu and the NLD over the past 25 years. I 
cannot count the number of times I have been told that the NLD is a 
``spent force''; that the Burmese people are ``over the Lady''; and 
that what ``average Burmese'' are really interested in is economic 
development. The election results were a stunning rebuke to much of 
this thinking, and I hope will lead some commentators to be a little 
more humble in assuming they know what the Burmese people believe based 
on their discussions with government officials, Yangon-based diplomats 
and Burmese elite intellectuals. I would also caution against the kind 
of pearl-clutching some analysts have indulged in over Daw Suu's 
dismissive attitude toward the junta's antidemocratic constitution. Her 
choice of phrase in explaining how she would lead the NLD government 
from ``above the President'' may have sounded inartful to outsiders, 
but Burmese voters found it reassuring and seem to hold the junta-
drafted 2008 constitution in the same low regard she does. In any 
event, I hope that the NLD will continue to defy their skeptics' 
expectations.
    As the media caravan moves on to the next shiny object and the 
country enters this interregnum, we cannot forget that the current 
government will remain largely in place until April 2016. I know the 
Burmese people will keep demanding accountability and democracy, but I 
am less confident about how principled the international community will 
be in doing so for the next few months. This is especially true given 
how eager it was to engage with the USDP over the past 5 years. In the 
near term, we need to express our clear expectations to the lame-duck 
government that they should immediately take steps to address the 
following in order to indicate their seriousness in continuing the 
reform process and effecting a smooth transfer of power to the NLD:

  <bullet> Unconditional release of all political prisoners, including 
        those awaiting trial;
  <bullet> Halt offensives against ethnic nationalities area--
        particularly indiscriminate airstrikes in Kachin and Shan 
        states; and
  <bullet> Removal of current barriers to humanitarian access and 
        space, including in Rakhine state.

    On the evening of November 9, I was standing with thousands of NLD 
supporters on of all ages, madly screaming their heads off when returns 
were announced from the balcony of the party headquarters in Rangoon. 
There was not a policeman of any kind in sight; NLD youth managed 
traffic as the crowds spilled into and across the busy roadway in front 
of the building. Every new announcement of an NLD sweep brought massive 
celebrations. One rarely gets the opportunity to live history in that 
way, and being there with Min Ko Naing announcing official results from 
Pegu division was like a dream. But the reality was that I had gone to 
this party with my friend May Sabe Phyu, a prominent Kachin activist 
whose husband Patrick was arrested a month ago over a Facebook posting 
and remains in jail. This past Tuesday he was again denied bail 
apparently on orders from the military. In addition to keeping me 
updated about her husband's absurd imprisonment, Phyu Phyu was sending 
me harrowing reports of the latest military assaults in her homeland 
and the worsening humanitarian situation for the thousands of IDPs in 
Kachin state who currently are receiving little international 
assistance. Neither political prisoners nor Kachin and Shan IDPs should 
have to wait until April to get relief.
    Likewise, the situation of the Rohingya remains abominable, and 
there is very little hope that it will improve during this interregnum 
period. While the USDP's electoral imperative to use them as a 
scapegoat may have subsided, their potential utility as a spark for 
creating violence and instability remains a tool the authorities are 
all to willing to deploy. The monsoon season is now over, and while we 
are unlikely to see a repeat of the horrors of the mass migration of 
this past spring, many Rohingya will doubtless take to the seas out of 
hopelessness and despair. The NLD has indicated a willingness to 
address the citizenship problem at some point, but right now this is a 
mess that the current regime made and should be held responsible for 
addressing in a meaningful way in its waning days. The U.S. and 
international community should push hard for the outgoing regime to 
open humanitarian space in Rakhine state and pull back on enforcement 
of both new and long-standing racist policies that serve as push 
factors for migration of Rohingya. The NLD will inherit enough negative 
legacies of military rule without also having deal with the immediate 
consequences of the USDP's demonization of the Rohingya.
    Looking ahead to April 2016, as we think about how U.S. policy 
should be adjusted to account for Burma's evolving political situation, 
it is important that we consider the problems that were created by our 
move away from a principled approach, and toward a more pragmatic 
approach to Burma. Following the April 2012 by-elections in which Aung 
San Suu Kyi was elected to Parliament, the U.S. began a process of 
rapidly normalizing relations with the USDP-led government despite the 
fact that key fundamental aspects of Burma's political environment 
either remained unimproved or began to worsen. The U.S. did not self-
correct and slow down its engagement until earlier this year, and our 
brand in Burma was clearly damaged by this overly optimistic policy. 
Democratic civil society, ethnic nationalities leaders and NLD leaders 
at various times expressed their concerns that the U.S. was too close 
to the Thein Sein government and had abandoned Burma's democratic 
movement.
    By this summer, it had become clear to many on the ground that the 
U.S. and other former supporters of democracy in Burma were willing to 
accept something that fell far short of democracy, as long as the 
elections were not openly stolen or subject to widespread violence. 
This lowering of the bar also had troubling implications for democrats 
struggling in Thailand, Cambodia, China, and other countries around the 
region. Civil society on the ground viewed negatively much of the U.S. 
assistance provided to and through Burmese Government entities, 
especially when the coupled with a tendency on the part of USAID and 
other large donors to funnel most of the remaining funds through its 
usual cadre of contractors. We need to examine how our assistance 
programs may have undermined our stated objective of supporting 
democracy in Burma.
    The NLD's landslide has now gotten much of the international 
community off the hook for its questionable behavior heading into the 
elections, as they are not forced to deal with the prospect of an 
illegitimate minority government comprised of the USDP and the 
military. It remains to be seen how the NLD will reflect on this short-
sighted, transactional approach by its erstwhile supporters. I 
encourage the U.S. to enter a period of strategic pause and reflection 
until we see a real transfer of power, meaning April 2016 at the 
earliest. In the meantime, we should undertake serious work to engage 
actors on the ground beyond those who seem to have guided us into our 
previous policy cul-de-sac. If they are still willing to work with us 
and accept our support in building a brighter future for their country, 
then we will once again be the fortunate partners of Burma's long-
suffering and potentially victorious democrats.

    Senator Gardner. Thank you, and thanks again for all of 
your testimony.
    Ms. Currie, I will just start where you left off on Burma. 
I asked the first panel what needs to happen, what does not 
need to happen over the next several months as Burma moves 
forward through this election process to finalize the selection 
of a President. What do you see happening? What needs to 
happen? And what are you concerned could happen?
    Ms. Currie. I would like to see us have very clear demands 
with the lame-duck government over the next 4 months that they 
immediately release all political prisoners, including those 
awaiting trial and have yet to be sentenced.
    This includes two people who have recently been arrested 
just in the past month for postings on Facebook who have been 
denied bail, who are sitting in prison because they put 
pictures up on Facebook that were mildly satirical. This is 
absurd.
    This also includes student groups, student demonstrators, 
who were arrested in February and still have not been 
sentenced. Many of them have been on hunger strikes. They were 
tortured and abused very badly when they were arrested. Their 
immediate release would send a very strong signal that the 
regime is committed to moving forward with Burma's democratic 
transition.
    Second, the offensives in Shan and Kachin states, which 
have actually escalated since Election Day, need to be stopped 
immediately. They are targeting civilian populations, or at 
least indiscriminately attacking minority positions in these 
areas, and causing massive civilian displacement and 
casualties. This needs to be halted, and it is fully within 
their power to do that.
    The third issue, as I mentioned, humanitarian access has 
been spotty in Kachin and Shan. You have thousands of IDPs in 
Kachin state in particular who have no access to humanitarian 
assistance because they are outside of government controlled 
areas. And the United States has not done enough to get basic 
humanitarian assistance to these people.
    Likewise, the situation of the Rohingya in Rakhine state is 
just deplorable. It continues to deteriorate. While the numbers 
of people taking to the sea this year have not been as inflated 
as they were last year, the situation there has not materially 
improved for them.
    There is plenty of space to open the aperture on 
humanitarian assistance there and to allow greater humanitarian 
access.
    Again, these are all things that are fully within the 
control of the authorities and would go a long way to helping 
us be comfortable that they are sincere.
    Senator Gardner. Thank you.
    Mr. Hiebert.
    Mr. Hiebert. Could I just add one thing?
    Senator Gardner. Yes.
    Mr. Hiebert. I agree with most of what Kelley said. I would 
just like to add, yesterday or the day before, Thein Sein, the 
President, and the military commander also said they would not 
meet with Aung San Suu Kyi until the 100 or so areas in which 
they are going to contest the election--something that happened 
in the election.
    Once they initiate the appeal, there is no deadline by when 
the union election commission has to resolve the issue. So if 
they are going to keep delaying, as they can with the terms 
that they have set out, it is a recipe for unending dispute and 
just no transition by the April 1 deadline that Kelley laid 
out.
    Senator Gardner. What do you think we ought to be doing? 
How should we respond to that? What message should we be 
sending? What actions should we be taking?
    Mr. Hiebert. I think we need to suggest to them that they 
should meet at a decent interval, whether they have to meet 
this week or next, I do not know. But to wait until everything 
is resolved when it is very clear who won this election is kind 
of crazy, and it is going to just leave the country in limbo. 
They are lame ducks and not ruling. Aung San Suu Kyi cannot 
rule the country. You are going to have the military doing the 
offensives that Kelley talked about in Kachin and Shan states.
    So I think we need to put a little pressure on them, the 
United States has quite a bit of clout with them in terms of 
pressing them to try to live up to some of what they said 
earlier they would do.
    Senator Gardner. The State Department is obviously aware of 
this. Have you seen any actions that they have taken so far? Or 
do they need a little push on this?
    Mr. Hiebert. I do not know.
    Ms. Currie. There has not been any comment yet out of the 
State Department regarding the announcements yesterday that 
this was the tactic that the authorities seem to be taking.
    And it is a very worrying sign. The delay in meeting and 
the sudden appearance of a 100 complaints against 100 
candidates, which would clearly be enough to undermine the 
ruling majority of the NLD and tip things back toward the 
military.
    Senator Gardner. Ambassador Green, I do not know if you 
want to add anything to that or not?
    Ambassador Green. I agree with what you just heard. I think 
also part of that is to significantly weigh in with the 
positives, the carrot of what can be possible should these 
steps be taken.
    Burma, obviously, in the days immediately after the 
election, enjoyed praise from many quarters and well-deserved 
for the technical challenge of administering four different 
ballots in many places. But it also has to be clear that that 
can go away rather quickly if they do not follow through with 
the promises that have been made and the promise of democracy.
    So I think it is engagement and clarity and making it clear 
what expectations are and what the possibilities are, as long 
as they follow through with the significant commitments that 
have been made.
    Senator Gardner. Thank you. Obviously, as we discussed 
prior to the hearing, we talked about the concern throughout 
the region of Paris-type terrorist acts spreading to places 
around the world, including Southeast Asia.
    I guess the question I have is, what accelerator is there? 
Is there an accelerator in Southeast Asia? As we talk about the 
struggles that some are having toward democracy, maybe some are 
slipping away from democracy or freedoms, and more corruption, 
is there an accelerator in the region that would either amplify 
the direction, the speed of the direction they take for the 
direction of good, pro-democracy efforts, and conversely the 
direction that it could take in the wrong direction? What could 
speed up more government control, less freedom, less 
opportunity for the reforms to corruption and transparencies 
that we talked about today?
    Is it terrorism? Is it financial? Is it natural disaster? 
What is the big accelerator in the region that could either, 
good or bad, speed the direction?
    Ambassador Green. Do you want to?
    Mr. Hiebert. I was going to just talk a little bit about 
Indonesia and Malaysia, that had--estimates are between 800 and 
1,000 or so fighters, though some are family members. You maybe 
saw this more earlier today, the deputy prime minister and home 
affairs minister in Malaysia signed an agreement with 
Ambassador Joe Yun on increased access to U.S. databases on bad 
actors, ``terrorists.''
    That kind of thing is in the U.S. interests, as well as in 
their interests. I am not sure that those kind of agreements 
make much difference as accelerators.
    At the same time, the United States is working with 
Malaysia on maritime domain awareness for the South China Sea, 
which is in Malaysia's interest and in the United States 
interest. So they are sort of happening on a parallel track.
    How you press Malaysia, it is really tough. Some of it can 
be done in the TPP. The United States has given them many 
warnings or urged them to get going and abandon the Sedition 
Act and things like that. But now Najib, the Prime Minister, is 
fighting for his political life. It is going to be tough to 
turn this around.
    Ms. Currie. With Prime Minister Najib and Burma as well as 
in other places, I think that appeals to sectarianism are a 
danger. And in Malaysia, in particular, it could be potentially 
a dangerous situation. As we have seen in Burma, it was not 
necessarily productive politically but it is dangerous to the 
society, which will have long-term effects. I think that is 
true in Malaysia because of the structural ways that Malaysia's 
governance system is set up, as well as its economic and more 
general system, and how certain groups are privileged and 
others are not. And the appeal to the Bumiputera in Malaysia is 
one of Najib's last tools that he has at his disposal.
    Ambassador Green. If I can, in a slightly longer term view, 
one of the most important accelerators of democratic transition 
is success. So I think pushing and reinforcing success in 
Indonesia to help them take on their great challenges, and the 
same thing is true with a Burma depending upon how these next 
several months go, those countries succeeding in their 
democratic transition, that is one of the most important things 
and one of the most important messages that we can send 
throughout the region.
    Remember, there is a counternarrative in that region that 
comes from China, that democracy cannot work in this continent, 
in this region. There is this constant refrain that what we are 
talking about are merely Western ideas and they do not work in 
Asian societies.
    Success in Indonesia, hopefully the beginning of success in 
Burma, that is what we need to be thinking about, making 
significant investments in the NLD so they have the governing 
capacity to take on the significant challenges that they face.
    Remember, there is an entrenched bureaucracy there that 
grew up and operated in an entirely different mindset. They are 
going to need a lot of assistance and help from friends like 
the United States of America to help them. Their success is the 
most important thing that we can see.
    Senator Gardner. Mr. Hiebert, I saw you raise your hand.
    Mr. Hiebert. I realized one other thing that I should have 
added and that is Senator Cardin talked about the TPP lever. 
With Malaysia, the TPP is really important because they want to 
get out of the middle-income trap. They see this as more access 
to the United States and Japan markets. It gives them a bounce 
versus the China market.
    The United States had some leverage using the TPP and the 
TIP. On the trafficking issue, they did not do enough, I would 
argue, but maybe as Senators start dealing with passing the TPP 
to raise concerns about human rights and democracy issues in 
Malaysia, at least the bells will go off that maybe they will 
not be included. So that is another lever that you guys might 
be able to use.
    Senator Gardner. Thank you.
    Senator Cardin.
    Senator Cardin. Again, let me welcome our three members of 
the panel, but particularly I want to welcome Ambassador Green, 
my former colleague in the House of Representatives. Ambassador 
Green had an incredible reputation in the House in regards to 
the Millennium Development Act and the PEPFAR program, so it is 
good to see there is life after Congress, so it is nice to have 
you here. [Laughter.]
    You mentioned, Mr. Ambassador, Western ideas. In 1975, the 
Soviet Union, in order to show that they were truly a 
democratic state in the eyes of the globe, joined us in 
establishing the Commission for Security and Cooperation in 
Europe, now the OSCE, the implementing arm being the Helsinki 
Commission.
    And when one mentions Helsinki, they think human rights. It 
is broader than human rights, but they do think human rights. 
And there are global standards that were agreed to by all 
nations by consensus--human rights, good governance, religious 
tolerance--all the good universal values that we hold so dear.
    These are not Western values. These are universal values. 
So no one is trying to import Western values to Southeast Asia. 
We want respect for universal values.
    The OSCE is a consensus organization, so there is no 
ability to enforce other than through putting a spotlight on 
problems and using conciliatory tactics to try and make 
progress. It would seem to me that such an organization would 
be very helpful in Southeast Asia.
    I know Southeast Asia has organizations, such as ASEAN. 
ASEAN is taking on an ambitious project on the Code of Conduct 
for the China Sea. If it works, it will be an incredibly 
valuable contribution to regional stability.
    But it would seem to me that it would be advantageous for 
us to try to strengthen either ASEAN or a regional organization 
to judge each other's conduct by universal values, including 
good governance.
    Is this possible? Would it make sense if we can get it 
done?
    Ambassador Green. Senator, I could not agree more. I think 
one of the successes that we have seen for the Millennium 
Challenge Corporation, which is primarily for economic reasons 
applicable to Africa, much more so than perhaps this region, is 
the fact that we have clear objective indicators that we have 
indicated we believe are essential for prosperity and stability 
in the long run.
    When you take a look at the discussions that take place in 
regional settings on that continent, there is a great deal of 
looking around to see how one's neighbor is doing, good and 
bad.
    I think that strengthening regional approaches, which will 
require assistance from us to get going, I think is a very 
important idea. I think it is a good one. It reinforces what 
you said to begin with. These are obviously not Western ideals, 
and we should push back forcefully anybody who tries to say 
otherwise.
    Working to strengthen regional institutions, peer-to-peer 
organizations, organizations in which leaders and former 
leaders can come and meet and help build capacity in emerging 
governments and talk about challenges they face, it is a very 
important idea. And I think it is one worth pursuing.
    Senator Cardin. Ms. Currie.
    Ms. Currie. Thank you for raising this issue, Ranking 
Member Cardin, because it is an important issue. There have 
been several efforts over the past several decades to try to 
build organizations along the lines of the Helsinki Process in 
Asia. They have never really gotten very far.
    I think that probably the biggest barrier is China and the 
role that they play in constraining organizations from forming 
a democracy-focused grouping at the official level. And the 
governments of even Indonesia, South Korea, Japan, even our 
most democratic long-standing allies, can be reluctant to be 
seen as bandwagoning against China in that way in the region. 
And unless and until we can get China to agree in the way that 
the Russians agreed as part of the OSCE process, it will be 
very challenging to do that.
    But in the absence of official entities that have been 
created in the region, civil society has really raced ahead. So 
you have seen regional civil society build up their own kind of 
networks and their own kind of institutions that are really 
shaping how the region responds to these challenges.
    Developmental authoritarian narratives still have a lot of 
credence at the elite level across the region, and China 
certainly promotes that. But at the grassroots level, that 
narrative is not nearly as popular. And when people are given 
the opportunity to reject it and vote for democratic systems, 
they inevitably largely follow that path.
    So I think we are in evolutionary period there. The 
opportunity is not yet ripe for that kind of regional 
organization because of China's role, but I think it is good to 
keep thinking about how we build that kind of cooperation.
    Senator Cardin. In 1975, the Soviet Union was the dominant 
factor on the OSCE. It included Canada and the United States, 
and we are not necessarily considered part of Europe.
    So it seems to me, even if you look just at Southeast Asia, 
dominant players in the development of Southeast Asia include 
the United States and China and Russia, by the way. They are 
certainly dominant players. It has to be part of the equation.
    We do have a seat at the table of ASEAN. It is not a full 
seat, but we have a seat. And we have a full mission there, 
because we recognize the importance to the United States.
    Ambassador Green. Senator, if I can add on to what Kelley 
has said, which I agree with, two other factors.
    On the positive side, South China Sea and some of the 
issues that have been raised, they are also serving as a 
reminder to some of these nations about the high price of 
China's expansionist philosophy and ideology. It has also 
caused some of these nations to have conversations with us on a 
number of fronts that maybe would have happened a little more 
reluctantly.
    Secondly, she makes a very good point about civil society, 
the role civil society is playing and seeking to play, which is 
why looking at the enabling environment, the regulations, the 
registration requirements, in each of these countries is 
terrifically important. We should make it a central part of our 
diplomatic push to ensure that there is an opening for civil 
society to speak with citizens and to act as a link between 
citizens and their government.
    We are seeing in too many places in the world and in this 
region where central governments are seeking to close down 
civil society, which is one of the greatest threats to any 
democratic progress.
    Senator Cardin. Yes?
    Mr. Hiebert. I just want to throw out that the two bodies 
that are actually active on human rights within ASEAN. ASEAN 
itself has a human rights organization that it set up, but like 
everything else in ASEAN, it is consensus-driven. So Cambodia 
can stop some of the more interesting discussions that 
Indonesia, the Philippines would have liked to have had.
    And then the second organization is the Bali Forum, which 
has annual meetings in Bali bringing people from around the 
region. But that is Indonesia-driven.
    Some countries like the Philippines are encouraging, are 
supportive. But everybody else is basically holding off.
    So there are forums that we maybe could consider working 
with and encouraging, but the consensus nature of ASEAN makes 
some of this stuff tough.
    Senator Cardin. It is interesting, because consensus, 
certainly, presents a challenge, there is no question, when one 
country can prevent action from being taken. It was the reason 
why the Soviet Union went forward with the Helsinki final 
accords.
    On the other hand, it does allow you to bring everyone 
together in a less intimidating setting. Putting a spotlight on 
a country could be a pretty strong way to make progress.
    The other thing about the process is that it gives 
legitimacy to any of the participating countries to raise 
questions in other countries. You have the right to do that. 
That is a powerful right, even in a consensus organization.
    So I think there are some major benefits to be had, if we 
could set up that type of structure.
    My recommendation is--do not try to reinvent the wheel. 
Just use the Helsinki model. We have looked at that in other 
regions. We looked at in the Middle East. We looked at it in 
Asia. We are challenged in our own hemisphere.
    So there are ways of trying to improve regional cooperation 
by recognizing universal values--again, not Western values, but 
universal values.
    I do not want this panel to go without raising the Burma 
election issue and the Rohingya being disqualified from voting. 
How do you even give a stamp of approval on the elections when 
so many people were denied the opportunity because of their 
ethnic backgrounds?
    To me, you can never put a stamp of approval on this 
election under those circumstances.
    Ms. Currie. I would agree with you wholeheartedly, Mr. 
Cardin, that the disenfranchisement of the Rohingya, the fact 
that there will not be a Muslim Member of Parliament for the 
first time in Burma's history, these are serious societal 
problems. They are not just political problems.
    The failure--it was not even a failure, the intentional 
effort to disenfranchise the Rohingya people.
    It was troubling, actually, with your previous panel to 
have Mr. Busby self-correct and not refer--he initially called 
the Rohingya ``citizens'' and then self-corrected and referred 
to them as ``residents.'' I hope that that is not the position 
of the United States Government, that the Rohingya are mere 
residents of Burma. Maybe it is not for us to decide, but we 
certainly should not be sitting up here making that decision ad 
hoc on a congressional panel.
    This is something that I would like to see the lame-duck 
government address in their time in office and not dump on Aung 
San Suu Kyi's plate.
    But given the way that they have politicized this issue and 
attempted to turn it into a political wedge issue to make 
things difficult for her, I do not see that happening.
    Senator Cardin. I appreciate you correcting the record 
here. I agree with your statement.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you.
    I want to thank you all for being here today and for 
appearing before us and providing your testimony and responses.
    For the information of members, the record will remain open 
until the close of business next Monday, November 23, including 
for members to submit questions for the record.
    We ask the witnesses to respond as promptly as possible. 
This is your homework assignment. Your responses will also be 
made part of the record.
    With thanks of the committee, both Senator Cardin and I do 
deeply thank you.
    This hearing is now adjourned.
    [Whereupon, at 11:27 a.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
